U.S. DEPARTMENT OF COMMERCE

          Office of Inspector General





        Department of Commerce

                              FY 2009
                      Special-Purpose
                 Financial Statements

             Audit Report No. FSD-19652-0-0003
                                November 2009




                 Office of Audit and Evaluation
                                                          UNITED STATES DEPARTMENT OF COMMERCE
                                                          The Inspector General
                                                          Washington, D.C. 20230



November 30, 2009


MEMORANDUM FOR:                The Honorable Gary Locke
                               The Secretary of Commerce


                               1:M1-JL--("-­
FROM:                          Todd J. Zinser


SUBJECT:	                      FY 2009 Special-Purpose Financial Statements
                               Final Audit Report No. FSD-19652-0-0003


The attached audit report presents an unqualified opinion on the Department of Commerce's
fiscal year 2009 special-purpose financial statements. The audit results indicate that the
Department has established an internal control structure that facilitates the preparation of reliable
financial information.

KPMG LLP, an independent public accounting firm, performed the audit of the Department's
special-purpose financial statements for the year ended September 30, 2009. The contract with
KPMG required that the audit be performed in accordance with U.S. generally accepted
government auditing standards and Office of Management and Budget Bulletin 07-04, Audit
Requirements for Federal Financial Statements, as amended.

In itS audit of the Department, KPMG found that

•	 the special-purpose financial statements were fairly presented, in all material respects and in
   conformity with U.S. generally accepted accounting principles and the presentation
   requirements of the Treasury Financial Manual (TFM) Volume I, Part 2 - Chapter 4700;

•	 there were no material weaknesses in internal controls, as defined in the independent
   auditors' report; and

•	 there were no instances in which the Department did not comply with the requirements of
   TFM Volume I, Part 2 - Chapter 4700.

My office oversaw the audit performance and delivery. We reviewed KPMG's report and related
documentation and made inquiries of its representatives. Our review disclosed no instances
where KPMG did not comply, in all material respects, with U.S. generally accepted government
auditing standards. However, our review cannot be construed as an audit in accordance with
u.s. generally accepted government auditing standards. It was not intended to enable us to
express-and we do not express-any opinion on the Department's special-purpose financial
statements, conclusions about the effectiveness of internal controls, or conclusions on
compliance with TFM Volume I, Part 2 - Chapter 4700. KPMG is solely responsible for the
attached report dated November 16,2009, and the conclusions expressed in the report.

If you wish to discuss the contents of this report, please call me at (202) 482-4661, or
Dr. Brett M. Baker, assistant inspector general for audit, at (202) 482-2600.

We appreciate the cooperation and courtesies the Department extended to both KPMG and my
staff during the audit. .


Attachment


cc:	   John F. Charles
       Acting Chief Financial Officer and Acting Assistant Secretary for Administration




                                                2

                United States Department of Commerce
                 Closing Package - September 30, 2009
                           Table of Contents

Independent Auditors' Report

Closing Package Financial Statement Reports (GF003F)
     Balance Sheet
     Statement of Net Cost
     Statement of Changes in Net Position

Closing Package Line Reclassification Summary Report (GF003G)
     Balance Sheet
     Statement of Net Cost
     Statement of Changes in Net Position
     Custodial Activity

Trading Partner Summary Note Report (GF004F)
    Balance Sheet
    Statement of Net Cost
    Statement of Changes in Net Position

FR Notes Report (GF006)
    1-9
    10B-15
    17-20
    22
    25-28B

Other Data Report (GF007)
    1-2
    9 - 10
    15 - 16

Additional Closing Package Attachments
    A - Summary of Significant Accounting Policies (Additional Note 29)
    B - FR Notes Report Note 11: Federal Employee and Veteran Benefits Payable (Text Data)
    C - FR Notes Report Note 22: Earmarked Funds (Text Data)
    D - FR Notes Report Note 25: Stewardship Land Summary (Text Data)
    E - FR Notes Report Note 26: Heritage Assets (Text Data)
    F - Other Data Note 9: Stewardship Investments (Other Text Data)

Management Representation Letter

Summary of Unadjusted Audit Differences (per FAM 595)
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




          Independent Auditors’ Report on Special-Purpose Financial Statements


Inspector General, U.S. Department of Commerce and
Secretary, U.S. Department of Commerce:

We have audited the accompanying Closing Package Financial Statement Report – Balance Sheet
of the U.S. Department of Commerce (Department) as of September 30, 2009 and 2008; the
related Closing Package Financial Statement Reports – Statement of Net Cost and Statement of
Changes in Net Position, and the accompanying Financial Report (FR) Notes Reports (except for
the information in the FR Notes Reports entitled “threshold”) for the years then ended, the
accompanying Additional Note No. 29; the accompanying Trading Partner Summary Note Report
– Balance Sheet as of September 30, 2009 and 2008; and the related Trading Partner Summary
Note Reports – Statements of Net Cost and Changes in Net Position for the years then ended
(hereinafter collectively referred to as the special-purpose financial statements). These special-
purpose financial statements are the responsibility of the Department’s management. Our
responsibility is to express an opinion on these special-purpose financial statements based on our
audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
amended. Those standards and OMB Bulletin No. 07-04, as amended, require that we plan and
perform the audits to obtain reasonable assurance about whether the special-purpose financial
statements are free of material misstatement. An audit includes consideration of internal control
over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the
Department’s internal control over financial reporting. Accordingly, we express no such opinion.
An audit also includes examining, on a test basis, evidence supporting the amounts and
disclosures in the special-purpose financial statements and assessing the accounting principles
used and significant estimates made by management, as well as evaluating the overall
special-purpose financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

The accompanying special-purpose financial statements have been prepared for the purpose of
complying with the requirements of Volume I, Part 2 - Chapter 4700 of the U.S. Department of
the Treasury’s Treasury Financial Manual (TFM), as described in Additional Note No. 29, solely
for the purpose of providing financial information to the U.S. Department of the Treasury and the
U.S. Government Accountability Office (GAO) to use in preparing and auditing the Financial
Report of the U.S. Government, and are not intended to be a complete presentation of the
Department’s consolidated financial statements.




                               KPMG LLP, a U.S. limited liability partnership, is the U.S.
                               member firm of KPMG International, a Swiss cooperative.
In accordance with TFM Volume I, Part 2 - Chapter 4700, the Department prepared FR Notes
Report Nos. 1 through 28B, except for FR Notes Report Nos. 10A, 16, 21, 23, and 24, which
were not applicable to the Department. The Department included Additional Note No. 29, to
disclose other data not contained in the special-purpose financial statements, but which is
necessary to make the special-purpose financial statements more informative.

In our opinion, the special-purpose financial statements referred to above present fairly, in all
material respects, the financial position of the Department as of September 30, 2009 and 2008,
and its net costs and changes in net position for the years then ended in conformity with
U.S. generally accepted accounting principles and the presentation pursuant to the requirements
of TFM Volume I, Part 2 - Chapter 4700, as described in Additional Note No. 29.

The Department also prepared Other Data Report Nos. 1 through 16, except for Other Data
Report Nos. 3 through 8 and 11 through 14, which were not applicable to the Department. The
information included in Other Data Report Nos. 9 (except for the information in the section
entitled “Threshold”), 10, and 15 is presented for the purpose of additional analysis and is not a
required part of the special-purpose financial statements, but is supplementary information
required by U.S. generally accepted accounting principles and the TFM Volume I, Part 2 -
Chapter 4700. We have applied certain limited procedures, which consisted principally of
inquiries of management regarding the methods of measurement and presentation of this
information. However, we did not audit this supplementary information, and accordingly, we
express no opinion on it.

Our audits were conducted for the purpose of forming an opinion on the special-purpose financial
statements taken as a whole. The information included in the Other Data Report Nos. 1 and 2 is
presented for purposes of additional analysis and is not a required part of the special-purpose
financial statements. This information has been subjected to the auditing procedures applied in
the audits of the special-purpose financial statements and, in our opinion, is fairly stated in all
material respects in relation to the special-purpose financial statements taken as a whole.

The information included in Other Data Report No. 16; the information entitled “Threshold” in
Other Data Report No. 9; the information entitled “Threshold” in FR Notes Report Nos. 2, 3, 4A,
4B, 5, 6, 11, 12, 15, and 19; the information in the Closing Package Line Reclassification
Summary Report – Balance Sheet; the information in the Closing Package Line Reclassification
Summary Reports – Statements of Net Cost and Changes in Net Position; and the information in
the Closing Package Line Reclassification Summary Report – Custodial Activity are presented
for purposes of additional analysis and are not a required part of the special-purpose financial
statements. This information has not been subjected to the auditing procedures applied in the
audits of the special-purpose financial statements and, accordingly, we express no opinion on it.

The TFM Volume I, Part 2 - Chapter 4700 requires agencies to use the Governmentwide
Financial Reporting System to input certain data, as described in Additional Note No. 29. Except
as discussed in this report, we express no opinion on information maintained in that system.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, as amended,
we have also issued a combined auditors’ report dated November 10, 2009, which presents our
opinion on the Department’s consolidated financial statements; our consideration of the
Department’s internal control over financial reporting; and the results of our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements and



                                                2
other matters that are required to be reported under Government Auditing Standards. That report
is an integral part of the audits of the consolidated balance sheets of the Department as of
September 30, 2009 and 2008, and the related consolidated statements of net cost, changes in net
position, and combined statements of budgetary resources (collectively referred to as consolidated
financial statements) for the years then ended, performed in accordance with Government
Auditing Standards and OMB Bulletin No. 07-04, as amended, and should be read in conjunction
with this report in considering the results of our audits of the special-purpose financial statements.
Our audit of the consolidated financial statements of the Department as of and for the year ended
September 30, 2009, disclosed the following significant deficiency that was not considered to be
a material weakness, compliance matter, and additional concern.

      Significant Deficiency: The Department needs to make continued improvement in its
      information technology general control environment to fully ensure that financial data
      being processed on the Department’s systems has integrity, is confidentially maintained,
      and is available when needed.

      Compliance Matter: The Department determined that one remaining real property
      agreement contained indemnification clauses that present a prima facie violation of the
      Anti-Deficiency Act (ADA).

      Additional Concern: In fiscal year 2009, we identified a potential ADA violation at the
      National Telecommunications and Information Administration (NTIA) related to the use of
      voluntary services, that may not have been authorized by law. NTIA will refer this matter
      to the OGC to determine whether a violation of the ADA occurred. The outcome of this
      matter, and any resulting ramifications, is not presently known.

Management is responsible for establishing and maintaining effective internal control. In
planning and performing our audit of the fiscal year 2009 special-purpose financial statements,
we considered the Department’s internal control over financial reporting as a basis for designing
our auditing procedures for the purpose of expressing our opinion on the special-purpose
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the
Department’s internal control over financial reporting. Accordingly, we do not express an
opinion on the effectiveness of the Department’s internal control over financial reporting.

Our consideration of internal control over financial reporting for special-purpose financial
statements was for the limited purpose described in the preceding paragraph of this section and
was not designed to identify all deficiencies in the internal control over financial reporting for
special-purpose financial statements that might be deficiencies, significant deficiencies, or
material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A significant deficiency is a
deficiency, or combination of deficiencies, in internal control that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance. A material
weakness is a deficiency, or combination of deficiencies, in internal control, such that there is a
reasonable possibility that a material misstatement of the entity’s financial statements will not be
prevented, or detected and corrected on a timely basis.




                                                  3
In our fiscal year 2009 audit, we did not identify any deficiencies in internal control over
financial reporting for the special-purpose financial statements that we consider to be material
weaknesses as defined above.

Management is responsible for complying with laws, regulations (including TFM Volume I, Part
2 - Chapter 4700), contracts and grant agreements applicable to the Department. As part of
obtaining reasonable assurance about whether the Department’s fiscal year 2009 special-purpose
financial statements are free of material misstatement, we performed tests of its compliance with
certain provisions of laws, regulations, contracts, and grant agreements, noncompliance with
which could have a direct and material effect on the determination of financial statement
amounts. However, providing an opinion on compliance with those provisions or on compliance
with TFM Volume I, Part 2 - Chapter 4700 requirements was not an objective of our fiscal year
2009 audit of the special-purpose financial statements and, accordingly, we do not express such
an opinion.

The results of our tests of compliance with TFM Volume I, Part 2 - Chapter 4700 disclosed no
instances of noncompliance or other matters that are required to be reported under Government
Auditing Standards or OMB Bulletin No. 07-04, as amended.

                             ______________________________


This report is intended solely for the information and use of the Department’s management, the
Department’s Office of Inspector General, U.S. Department of the Treasury, OMB, and GAO, in
connection with the preparation and audit of the Financial Report of the U.S. Government, and is
not intended to be and should not be used by anyone other than these specified parties.




November 16, 2009




                                               4
                            U.S Department of Treasury
                    Governmentwide Financial Reporting System
             Additional Note to the Special-Purpose Financial Statements
                      Entity – 1300 Department of Commerce

Attachment A - Summary of Significant Accounting Policies (Additional Note 29)

A. Basis of Presentation

The Budget and Accounting Procedures Act of 1950 allows the Secretary of the Treasury
to stipulate the format and requirements of executive agencies to furnish financial and
operational information to the President and Congress to comply with Government
Management Reform Act of 1994 (GMRA) (Pub. L. No. 103-356), which requires the
Secretary of the Treasury to prepare and submit annual audited financial statements of the
executive branch. The Secretary of the Treasury developed guidance in the U.S
Department of Treasury’s Financial Manual (TFM) Volume 1, Part 2, Chapter 4700 to
provide agencies with instructions to meet the requirements of GMRA. The TFM Chapter
4700 requires agencies to:
   1. Reclassify all items and amounts on the audited consolidated, department-level
      balance sheet, statements of net cost, changes in net position/income statement,
      and statement or note on custodial activity, if applicable, to the special-purpose
      financial statements.
   2. Disclose special-purpose financial statement line item amounts identified as
      Federal by trading partner and amount (amounts should be net of intra-bureau and
      intra-departmental eliminations).
   3. Disclose notes required by the special-purpose financial statement line items and
      other notes required in the Financial Report of the U.S. Government (FR); and
   4. Disclose other data not contained in the primary FR financial statements and notes
      required to meet requirement of U.S. generally accepted accounting principles
The TFM Chapter 4700 requires agencies to use the Governmentwide Financial Report
System to input the above information. For purposes of the Special-purpose financial
statements, Closing Package is comprised of the following GFRS Modules:
   1. Closing Package Financial Statement Reports (GF003F)
   2. Trading Partner Summary Note Report (GF004F)
   3. Closing Package Line Reclassification Summary Report (GF003G)
   4. FR Notes Report (GF006)
   5. Other Data Report (GF007)

The generic format for the special-purpose financial statements is based on the U.S.
Standard General Ledger (USSGL) crosswalk to the FR financial statements and notes. In
May 2009 and August 2009, Treasury issued TFM Transmittal Letter No. 650 and Transmittal
Letter No. S2 09-02, respectively, effective for fiscal year 2009, that revised the mapping of



                                                                                            1
certain USSGL accounts to the special-purpose financial statements and resulted in
agencies reclassifying the accompanying fiscal year 2008 special-purpose financial
statements to conform with the fiscal year 2009 presentation. Therefore, certain amounts
in the fiscal year 2008 columns on the accompanying special-purpose financial
statements differ from the amounts in the columns labeled “previously reported.”

B. Description of Reporting Entity

The Department of Commerce (the Department) is a cabinet-level agency of the
Executive Branch of the U.S. government. Established in 1903 to promote U.S. business
and trade, the Department’s broad range of responsibilities includes predicting the
weather, granting patents and registering trademarks, measuring economic growth,
gathering and disseminating statistical data, expanding U.S. exports, developing
innovative technologies, helping local communities improve their economic development
capabilities, promoting minority entrepreneurial activities, and monitoring the
stewardship of national assets. The Department is composed of 12 bureaus, the
Emergency Oil and Gas and Steel Loan Guarantee Programs, the National Intellectual
Property Law Enforcement Coordination Council, and Departmental Management.

C. Basis of Accounting and Presentation

The Department’s fiscal year ends September 30. These financial statements reflect both
accrual and budgetary accounting transactions. Under the accrual method of accounting,
revenues are recognized when earned and expenses are recognized when incurred,
without regard to the receipt or payment of cash. Budgetary accounting is designed to
recognize the obligation of funds according to legal requirements, which in many cases is
made prior to the occurrence of an accrual-based transaction. Budgetary accounting is
essential for compliance with legal constraints and controls over the use of federal funds.

These financial statements have been prepared from the accounting records of the
Department in conformance with U.S. generally accepted accounting principles (GAAP)
and the form and content for entity financial statements specified by the Office of
Management and Budget (OMB) in Revised Circular No. A-136, Financial Reporting
Requirements. GAAP for federal entities are the standards prescribed by the Federal
Accounting Standards Advisory Board, which is the official body for setting the
accounting standards of the U.S. government.

Throughout these financial statements, intragovernmental assets, liabilities, earned
revenue, and costs have been classified according to the type of entity with whom the
transactions were made. Intragovernmental assets and liabilities are those from or to other
federal entities. Intragovernmental earned revenue represents collections or accruals of
revenue from other federal entities, and intragovernmental costs are payments or accruals
to other federal entities.

The Department is a party to allocation transfers with other federal agencies as both a
transferring (parent) entity and/or a receiving (child) entity. Allocation transfers are legal



                                                                                            2
delegations by one department of its authority to obligate budget authority and outlay
funds to another department. A separate fund account (allocation account) is created in
the U.S. Treasury as a subset of the parent fund account for tracking and reporting
purposes. All allocation transfers of balances are credited to this account, and subsequent
obligations and outlays incurred by the child entity are charged to this allocation account
as they execute the delegated activity on behalf of the parent entity. Generally, all
financial activity related to these allocation transfers (e.g. budget authority, obligations,
and outlays) is reported in the financial statements of the parent entity, from which the
underlying legislative authority, appropriations, and budget apportionments are derived.
EDA allocates funds, as the parent, to the U.S. Department of Agriculture’s Rural
Development Administration. Therefore, all financial activity related to these funds are
reported in the Department’s financial statements. NIST, NOAA, EDA, Census Bureau,
BEA, NTIS, and USPTO receive allocation transfers, as the child, from the General
Services Administration, Environmental Protection Agency, Delta Regional Authority,
and Appalachian Regional Commission. Activity relating to these child allocation
transfers is not reported in the Department’s financial statements.

D. Earmarked Funds

Earmarked funds are financed by specifically identified revenues, often supplemented by
other financing sources, which remain available over time. These specifically identified
revenues and other financing sources are required by statute to be used for designated
activities, benefits, or purposes, and must be accounted for separately from the
government’s general revenues. Earmarked funds include a general fund, public
enterprise revolving funds (not including credit reform financing funds), special funds,
and a trust fund. (See FR Notes Report No. 22, Earmarked Funds.)

E. Elimination of Intra-entity and Intra-Departmental Transactions and Balances

Transactions and balances within a reporting entity (intra-entity) have been eliminated
from the financial statements, except as noted below. Transactions and balances among
the Department’s entities (intra-Departmental) have been eliminated from the
Consolidated Balance Sheets, the Consolidated Statements of Net Cost, and the
Consolidated Statements of Changes in Net Position. The Statements of Budgetary
Resources are presented on a combined basis; therefore, intra-Departmental and intra-
entity transactions and balances have not been eliminated from these statements.

F. Fund Balance with Treasury

Fund Balance with Treasury is the aggregate amount of funds in the Department’s
accounts with the U.S. Department of the Treasury (Treasury). Deposit Funds primarily
represent the Spectrum Auction Proceeds Liability to the Federal Communications
Commission (FCC) and amounts held in customer deposit accounts.




                                                                                           3
Treasury processes cash receipts and disbursements for the Department’s domestic
operations. Cash receipts and disbursements for the Department’s overseas operations are
primarily processed by the U.S. Department of State’s financial service centers.

G. Accounts Receivable, Net

Accounts Receivable are recognized primarily when the Department performs
reimbursable services or sells goods. Accounts Receivable are reduced to net realizable
value by an Allowance for Uncollectible Accounts. This allowance is estimated
periodically using methods such as the identification of specific delinquent receivables,
and the analysis of aging schedules and historical trends adjusted for current market
conditions.

H. Advances and Prepayments

Advances are payments the Department has made to cover a part or all of a grant
recipient’s anticipated expenses, or are advance payments for the cost of goods and
services to be acquired. For grant awards, the recipient is required to periodically
(monthly or quarterly) report the amount of costs incurred. Prepayments are payments the
Department has made to cover certain periodic expenses before those expenses are
incurred, such as subscriptions and rent. Advances and Prepayments are included in
Other Assets.

I. Direct Loans and Loan Guarantees

A direct loan is recorded as a receivable after the Department disburses funds to a
borrower. The Department also makes loan guarantees with respect to the payment of all
or part of the principal or interest on debt obligations of non-federal borrowers to non-
federal lenders. A borrower-defaulted loan guaranteed by the Department is recorded as a
receivable from the borrower after the Department disburses funds to the lender.

Interest Receivable generally represents uncollected interest income earned on loans. For
past-due loans, only up to 180 days of interest income is generally recorded.

Foreclosed Property is acquired primarily through foreclosure and voluntary conveyance,
and is recorded at the fair market value at the time of acquisition. Foreclosed Property is
adjusted to the current fair market value each fiscal year-end.

Direct Loans and Loan Guarantees Obligated before October 1, 1991 (pre-FY 1992):
Loans Receivable are reduced by an Allowance for Loan Losses, which is based on an
analysis of each loan’s outstanding balance. The value of each receivable, net of any
Allowance for Loan Losses, is supported by the values of pledged collateral and other
assets available for liquidation, and by the Department’s analysis of financial information
of parties against whom the Department has recourse for the collection of these
receivables.




                                                                                         4
The Economic Development Revolving Fund is required to make annual interest
payments to Treasury after each fiscal year-end, based on its outstanding receivables at
September 30.

Direct Loans and Loan Guarantees Obligated after September 30, 1991 (post-FY 1991):
Post-FY 1991 obligated direct loans and loan guarantees and the resulting receivables are
governed by the Federal Credit Reform Act of 1990.

For a direct or guaranteed loan disbursed during a fiscal year, a subsidy cost is initially
recognized. Subsidy costs are intended to estimate the long-term cost to the U.S.
government of its loan programs. The subsidy cost equals the present value of estimated
cash outflows over the life of the loan, minus the present value of estimated cash inflows,
discounted at the applicable Treasury interest rate. Administrative costs such as salaries
are not included in the subsidy costs. Subsidy costs can arise from interest rate
differentials, interest subsidies, delinquencies and defaults, loan origination and other
fees, and other cash flows. The Department calculates its subsidy costs based on a model
created and provided by OMB.

A Loan Receivable is recorded at the present value of the estimated cash inflows less
cash outflows. The difference between the outstanding principal of the loan and the
present value of its net cash inflows is recorded as the Allowance for Subsidy Cost. A
subsidy reestimate is normally performed annually, as of September 30. The subsidy
reestimate takes into account all factors that may have affected the estimated cash flows.
Any adjustment resulting from the reestimate is recognized as a subsidy expense (or a
reduction in subsidy expense). The portion of the Allowance for Subsidy Cost related to
subsidy modifications and reestimates is calculated annually, as of September 30.

The amount of any downward subsidy reestimates as of September 30 must be disbursed
to Treasury in the subsequent fiscal year. Appropriations are normally obtained in the
following fiscal year for any upward subsidy reestimates.

J. Inventory, Materials, and Supplies, Net

Inventory, Materials, and Supplies, Net are stated at the lower of cost or net realizable
value primarily under the weighted-average and first-in, first-out methods, and are
adjusted for the results of physical inventories. Inventory, Materials, and Supplies are
expensed when consumed. There are no restrictions on their sale, use, or disposition.
J
K. General Property, Plant, and Equipment, Net

General Property, Plant, and Equipment, Net (General PP&E) is composed of capital
assets used in providing goods or services. General PP&E is stated at full cost, including
all costs related to acquisition, delivery, and installation, less Accumulated Depreciation.
General PP&E also includes assets acquired through capital leases, which are initially
recorded at the amount recognized as a liability for the capital lease at its inception.




                                                                                          5
Capitalization Thresholds: The Department’s general policy is to capitalize General
PP&E if the initial acquisition price is $25 thousand or more and the useful life is two
years or more. NOAA is an exception to this policy, based on a cost vs. benefits and
materiality analysis given the size of NOAA, having a capitalization threshold of $200
thousand. General PP&E with an acquisition cost less than the capitalization threshold is
expensed when purchased. When the purchase of a large quantity of items, each costing
less than the capitalization threshold, would materially distort the amount of costs
reported in a given period, the purchase is capitalized as a group.

Depreciation: Depreciation is expensed on a straight-line basis over the estimated useful
life of the asset with the exception of leasehold improvements, which are depreciated
over the remaining life of the lease or over the useful life of the improvement, whichever
is shorter. Land and Construction-in-progress are not depreciated.

Real Property: The U.S. General Services Administration (GSA) provides most of the
facilities in which the Department operates, and generally charges rent based on
comparable commercial rental rates. Accordingly, GSA-owned properties are not
included in the Department’s General PP&E. The Department’s real property primarily
consists of facilities for NIST and NOAA. Land Improvements consist of a retaining wall
to protect against shoreline erosion.

Construction-in-progress: Costs for the construction, modification, or modernization of
General PP&E are initially recorded as Construction-in-progress. The Department’s
construction-in-progress consists primarily of satellites under development for NOAA,
and major laboratory renovations and construction projects under development for NIST.
Upon completion of the work, the costs are transferred to the appropriate General PP&E
account.

L. Liabilities

A liability for federal accounting purposes is a probable and measurable future outflow or
other sacrifice of resources as a result of past transactions or events.

Accounts Payable: Accounts Payable are amounts primarily owed for goods, services, or
capitalized assets received, progress on contract performance by others, and other
expenses due.

Loans Payable -Debt to Treasury: The Department has borrowed funds from Treasury
for its various credit programs: Fisheries Finance Traditional, Tuna Fleet, and Individual
Fishing Quota (IFQ) Direct Loans, Fishing Vessel Obligation Guarantee (FVOG)
Program, Bering Sea Pollock Fishery Buyout, Pacific Groundfish Buyback Loans, Crab
Buyback Loans, Bering Sea and Aleutian Islands Non-Pollock Buyback Loans, and
Emergency Steel Loan Guarantee Program. To simplify interest calculations, all
borrowings are dated October 1. Interest rates are based on a weighted average of rates
during the term of the borrowed funds. The weighted average rate for each cohort’s
borrowing is recalculated at the end of each fiscal year during which disbursements are



                                                                                        6
made. Annual interest payments on unpaid principal balances as of September 30 are
required. Principal repayments are required only at maturity, but are permitted at any
time during the term of the loan. The Department’s primary financing source for
repayments of Debt to Treasury is the collection of principal on the associated Loans
Receivable. Balances of any borrowed but undisbursed funds will earn interest at the
same rate used in calculating interest expense. The amount reported for Debt to Treasury
includes accrued interest payable.

The Department has also borrowed funds from Treasury for its Digital Television
Transition and Public Safety Fund. This NTIA fund, which was created by the Digital
Television Transition and Public Safety Act of 2005, receives proceeds from the auction
of licenses for recovered analog spectrum from discontinued analog television signals,
and provides funding for several programs from these receipts. This Act, as well as the
Security and Accountability For Every Port Act of 2006, also provides borrowing
authority to the Department to commence specified programs prior to the availability of
earned auction proceeds. As of September 30, 2009, NTIA has fully reimbursed Treasury
for the borrowings, without interest. NTIA shall reimburse Treasury for the borrowings,
without interest, as funds are deposited into the Fund.
Spectrum Auction Proceeds Liability to Federal Communications Commission: FCC
completed the auction of licenses for recovered analog spectrum in March 2008. These
auction proceeds provide funding for several programs. An auction proceed is considered
a liability to FCC until FCC grants the license. When the license is granted, a budgetary
financing source is recognized on the Consolidated Statement of Changes in Net Position,
for the earned net auction proceed (auction proceed less FCC administrative fees due to
FCC), and the liability is reduced by the dollar amount of the license granted.

Other Liabilities - Resources Payable to Treasury: Resources Payable to Treasury
includes liquidating fund assets in excess of liabilities that are being held as working
capital for the Economic Development Revolving Fund loan programs and the FVOG
loan guarantee program. EDA’s Drought Loan Portfolio is a non-entity asset; therefore,
the amount of the Portfolio is also recorded as a liability to the Treasury General Fund.
The Portfolio collections are returned to Treasury monthly, and the liability is reduced
accordingly.

Other Liabilities - Unearned Revenue: Unearned Revenue is the portion of monies
received for which goods and services have not yet been provided or rendered by the
Department. Revenue is recognized as reimbursable costs are incurred, and the Unearned
Revenue balance is reduced accordingly. Unearned Revenue also includes the balances of
customer deposit accounts held by the Department. The intragovernmental Unearned
Revenue primarily relates to monies collected in advance under reimbursable agreements.
The majority of the Unearned Revenue with the public represents patent and trademark
application and user fees that are pending action.

Benefits Program Contributions Payable - Accrued FECA Liability: The Federal
Employees Compensation Act (FECA) provides income and medical cost protection to
covered federal civilian employees injured on the job, to employees who have incurred



                                                                                       7
work-related occupational diseases, and to beneficiaries of employees whose deaths are
attributable to job-related injuries or occupational diseases. The FECA program is
administered by the U.S. Department of Labor (DOL), which pays valid claims against
the Department and subsequently seeks reimbursement from the Department for these
paid claims. Accrued FECA Liability, included in Intragovernmental Other Liabilities,
represents amounts due to DOL for claims paid on behalf of the Department.

Loan Guarantee Liabilities: Post-FY 1991 obligated loan guarantees are governed by the
Federal Credit Reform Act of 1990. For a guaranteed loan disbursed during a fiscal year,
a subsidy cost is initially recognized. Subsidy costs are intended to estimate the long-term
cost to the U.S. government of its loan programs. The subsidy cost equals the present
value of estimated cash outflows over the lives of the loans, minus the present value of
estimated cash inflows, discounted at the applicable Treasury interest rate. Administrative
costs such as salaries are not included in the subsidy costs. Subsidy costs can arise from
interest rate differentials, interest subsidies, delinquencies and defaults, loan origination
and other fees, and other cash flows. The Department calculates its subsidy costs based
on a model created and provided by OMB.

For a non-acquired guaranteed loan outstanding, the present value of the estimated cash
inflows less cash outflows of the loan guarantee is recognized as a Loan Guarantee
Liability. The Loan Guarantee Liability is normally reestimated annually each year, as of
September 30. The subsidy reestimate takes into account all factors that may have
affected the estimated cash flows. Any adjustment resulting from the reestimate is
recognized as a subsidy expense (or a reduction in subsidy expense).

Federal Employee and Veteran Benefits Payable - Actuarial FECA Liability: Actuarial
FECA Liability represents the liability for future workers’ compensation (FWC) benefits,
which includes the expected liability for death, disability, medical, and miscellaneous
costs for approved cases. The liability is determined by DOL annually, as of
September 30, using a method that utilizes historical benefits payment patterns related to
a specific incurred period to predict the ultimate payments related to that period. The
projected annual benefit payments are discounted to present value using OMB’s
economic assumptions for ten-year Treasury notes and bonds. To provide more
specifically for the effects of inflation on the liability for FWC benefits, wage inflation
factors (Cost of Living Allowance) and medical inflation factors (Consumer Price Index -
Medical) are applied to the calculation of projected future benefits. These factors are also
used to adjust historical payments of benefits by the Department to current-year constant
dollars.

The model’s resulting projections are analyzed by DOL to ensure that the amounts are
reliable. The analysis is based on two tests: (1) a comparison of the percentage change in
the liability amount by agency to the percentage change in the actual payments; and (2) a
comparison of the ratio of the estimated liability to the actual payment of the beginning
year calculated for the current projection to the liability-payment ratio calculated for the
prior projection.




                                                                                           8
Federal Employee and Veteran Benefits Payable - NOAA Corps Retirement System
Liability and NOAA Corps Post-retirement Health Benefits Liability: These liabilities are
recorded at the actuarial present value of projected benefits, calculated annually, as of
September 30. The actuarial cost method used to determine these liabilities is the
aggregate entry age normal method. Under this method, the actuarial present value of
projected benefits is allocated on a level basis over the earnings or the service of the
group between entry age and assumed exit ages. The portion of this actuarial present
value allocated to the valuation year is called the normal cost. Actuarial gains and losses,
and prior and past service costs, if any, are recognized immediately in the year they
occur, without amortization. The actuarial calculations use U.S. Department of Defense
Retirement Board of Actuaries economic assumptions (as used by the U.S. Military
Retirement System) for investment earnings on federal securities, annual basic pay
increases, and annual inflation. The medical claim rates used for the NOAA Corps Post-
retirement Health Benefits Liability actuarial calculations are based on the claim rates
used for the U.S. Department of Defense Medicare-Eligible Retiree Health Care Fund
actuarial valuations. Demographic assumptions appropriate to covered personnel are also
used.

Environmental and Disposal Liabilities: NIST operates a nuclear reactor licensed by the
U.S. Nuclear Regulatory Commission, in accordance with NIST’s mission of setting
standards and examining new technologies. The Department currently estimates the cost
of decommissioning this facility to be $70.3 million. The NIST decommissioning
estimate includes an assumption that an offsite waste disposal facility will become
available, when needed, estimated in 2029. Currently, an offsite disposal location has not
been identified, and the NIST environmental liability cost estimate includes an amount
approved by the Nuclear Regulatory Commission for offsite waste disposal. The total
estimated decommissioning cost is being accrued on a straight-line basis over the
expected life of the facility. Under current legislation, funds to cover the expense of
decommissioning the facility’s nuclear reactor should be requested in a separate
appropriation when the decommissioning date becomes relatively certain.

The Department has incurred cleanup costs related to the costs of removing, containing,
and/or disposing of hazardous waste from facilities used by NOAA. The Department has
estimated its liabilities for environmental cleanup costs at all NOAA-used facilities,
including the decommissioning of ships. The largest of NOAA’s environmental liabilities
relates to the clean-up of the Pribilof Island in Alaska, which contains waste from the
U.S. Department of Defense’s use during World War II. The Department does not
recognize a liability for environmental cleanup costs for NOAA-used facilities that are
less than $25 thousand per project. When an estimate of cleanup costs includes a range of
possible costs, the most likely cost is reported. When no cost is more likely than another,
the lowest estimated cost in the range is reported. The liability is reduced as progress
payments are made.

The Department may have liabilities associated with asbestos-containing materials
(ACM) and lead-based paints (LBP) at certain NOAA facilities. The Department has
scheduled surveys to assess the potential for liabilities for ACM and LBP contamination.



                                                                                          9
All known issues, however, are contained, and NOAA facilities meet current
environmental standards. No cost estimates are presently available for facilities that have
not yet been assessed for ACM or LBP issues.

Other Liabilities - Accrued Payroll and Annual Leave: These categories include salaries,
wages, and other compensation earned by employees, but not disbursed as of
September 30. Annually, as of September 30, the balances of Accrued Annual Leave are
adjusted to reflect current pay rates. Sick leave and other types of non-vested leave are
expensed as taken.

Other Liabilities - Accrued Grants: The Department administers a diverse array of
financial assistance programs and projects concerned with the entire spectrum of business
and economic development efforts that promote activities such as expanding U.S.
exports, creating jobs, contributing to economic growth, developing innovative
technologies, promoting minority entrepreneurship, protecting coastal oceans, providing
weather services, managing worldwide environmental data, and using
telecommunications and information technologies to better provide public services.
Disbursements of funds under the Department’s grant programs are generally made when
requested by grantees. These drawdown requests may be received and fulfilled before
grantees make the program expenditures. When the Department has disbursed funds but
the grant recipient has not yet reported expenditures, these disbursements are recorded as
advances. If a recipient, however, reports program expenditures that have not been
advanced by the Department by September 30, such amounts are recorded as grant
expenses and grants payable as of September 30.

Other Liabilities - Accrued Coupons for Digital-to-Analog Converter Box Program:
NTIA’s Digital-to Analog Converter Box Program provides households in the U.S. with
forty-dollar coupons (two per household maximum) that can be applied toward the
purchase of digital-to-analog converter boxes. This liability represents the projected
amount due for coupons issued as of September 30 but not yet redeemed.

Other Liabilities - Capital Lease Liabilities: Capital leases are leases for property, plant,
and equipment that transfer substantially all the benefits and risks of ownership to the
Department.

Other Liabilities - ITA Foreign Service Nationals’ Voluntary Separation Pay: This
liability, included in Other Liabilities, is based on the salaries and benefit statuses of
employees in countries where governing laws require a provision for separation pay.

Other Liabilities - Contingent Liabilities and Contingencies: A contingency is an existing
condition, situation, or set of circumstances involving uncertainty as to possible gain or
loss. The uncertainty will ultimately be resolved when one or more future events occur or
fail to occur. A contingent liability (included in Other Liabilities) and an expense are
recognized when a past event has occurred, and a future outflow or other sacrifice of
resources is measurable and probable. A contingency is considered probable when the
future confirming event or events are more likely than not to occur, with the exception of



                                                                                          10
pending or threatened litigation and unasserted claims. For pending or threatened
litigation and unasserted claims, the future confirming event or events are likely to occur.
A contingency is disclosed in the Notes to the Financial Statements if any of the
conditions for liability recognition are not met and there is at least a reasonable
possibility that a loss or an additional loss may have been incurred. A contingency is
considered reasonably possible when the chance of the future confirming event or events
occurring is more than remote but less than probable. A contingency is not recognized as
a contingent liability and an expense nor disclosed in the Notes to the Financial
Statements when the chance of the future event or events occurring is remote. A
contingency is considered remote when the chance of the future event or events occurring
is slight.

M. Commitments

Commitments are preliminary actions that will ultimately result in an obligation to the
U.S. government if carried through, such as purchase requisitions, estimated travel
orders, or unsigned contracts/grants. Major long-term commitments are disclosed in
FR Notes Report Note 19, Commitments.

N. Net Position

Net Position is the residual difference between assets and liabilities, and is composed of
Unexpended Appropriations and Cumulative Results of Operations.

Unexpended Appropriations represent the total amount of unexpended budget authority,
both obligated and unobligated.        Unexpended Appropriations are reduced for
Appropriations Used and adjusted for other changes in budgetary resources, such as
transfers and rescissions. Cumulative Results of Operations is the net result of the
Department’s operations since inception.

O. Revenues and Other Financing Sources

Appropriations Used: Most of the Department’s operating funds are provided by
congressional appropriations of budget authority. The Department receives
appropriations on annual, multiple-year, and no-year bases. Upon expiration of an annual
or multiple-year appropriation, the obligated and unobligated balances retain their fiscal
year identity, and are maintained separately within an expired account. The unobligated
balances can be used to make legitimate obligation adjustments, but are otherwise not
available for expenditures. Annual and multiple-year appropriations are canceled at the
end of the fifth year after expiration. No-year appropriations do not expire.
Appropriations of budget authority are recognized as used when costs are incurred, for
example, when goods and services are received or benefits and grants are provided.

Exchange and Non-exchange Revenue: The Department classifies revenue as either
exchange revenue or non-exchange revenue. Exchange revenue is derived from
transactions in which both the government and the other party receive value, including



                                                                                         11
processing patents and registering trademarks, the sale of weather data, nautical charts,
and navigation information, and other sales of goods and services. This revenue is
presented on the Department’s Consolidated Statements of Net Cost, and serves to reduce
the reported cost of operations borne by the taxpayer. Non-exchange revenue is derived
from the government’s sovereign right to demand payment, including fines for violations
of fisheries and marine protection laws. Non-exchange revenue is recognized when a
specifically identifiable, legally enforceable claim to resources arises, and to the extent
that collection is probable and the amount is reasonably estimable. This revenue is not
considered to reduce the cost of the Department’s operations, and, is, therefore, reported
on the Consolidated Statements of Changes in Net Position.

In certain cases, law or regulation sets the prices charged by the Department, and, for
program and other reasons, the Department may not receive full cost (e.g., the processing
of patents and registering of trademarks, and the sale of weather data, nautical charts, and
navigation information). Prices set for products and services offered through the
Department’s working capital funds are intended to recover the full costs incurred by
these activities.

Imputed Financing Sources From Cost Absorbed by Others (and Related Imputed Costs):
In certain cases, operating costs of the Department are paid for in full or in part by funds
appropriated to other federal entities. For example, Civil Service Retirement System
pension benefits for applicable Departmental employees are paid for in part by the U.S.
Office of Personnel Management (OPM), and certain legal judgments against the
Department are paid for in full from the Judgment Fund maintained by Treasury.
Through FY 2008, OMB limited Imputed Costs to recognize by federal entities to the
following: (1) employees’ pension benefits; (2) health insurance, life insurance, and other
benefits for retired employees; (3) other postemployment benefits for retired, terminated,
and inactive employees, including severance payments, training and counseling,
continued health care, and unemployment and workers’ compensation under FECA; and
(4) losses in litigation proceedings. Effective FY 2009, there is no longer a limitation on
Imputed Costs to be recognized by federal entities, and the Department, accordingly,
recognizes all Imputed Costs paid for in full or in part by other federal entities. The
additional imputed costs recorded were not material. The Department includes applicable
Imputed Costs on the Consolidated Statements of Net Cost. In addition, an Imputed
Financing Source from Cost Absorbed by Others is recognized on the Consolidated
Statements of Changes in Net Position.

Transfers In/(Out): Intragovernmental transfers of budget authority (i.e., appropriated
funds) or of assets without reimbursement are recorded at book value.

P. Employee Retirement Benefits

Civil Service Retirement System (CSRS) and Federal Employees Retirement System
(FERS): Most employees of the Department participate in either the CSRS or FERS
defined-benefit pension plans. FERS went into effect on January 1, 1987. FERS and
Social Security automatically cover most employees hired after December 31, 1983.



                                                                                         12
Employees hired prior to January 1, 1984 could elect to either join FERS and Social
Security, or remain in CSRS.

The Department is not responsible for and does not report CSRS or FERS assets,
accumulated plan benefits, or liabilities applicable to its employees. OPM, which
administers the plans, is responsible for and reports these amounts.

For CSRS-covered regular employees, the Department was required to make
contributions to the plan equal to 7.0 percent of an employee’s basic pay. Employees
contributed 7.0 percent of basic pay. For each fiscal year, OPM calculates the U.S.
government’s service cost for covered employees, which is an estimate of the amount of
funds, that, if accumulated annually and invested over an employee’s career, would be
enough to pay that employee’s future benefits. Since the U.S. government’s estimated
service cost exceeds contributions made by employer agencies and covered employees,
this plan is not fully funded by the Department and its employees. The Department has
recognized an Imputed Cost and an Imputed Financing Source From Cost Absorbed by
Others for the difference between the estimated service cost and the contributions made
by the Department and its covered employees.

For FERS-covered regular employees, the Department was required to make
contributions of 11.2 percent (since FY 2005) of basic pay. Employees contributed .8
percent of basic pay. For each fiscal year, OPM calculates the U.S. government’s service
cost for covered employees. For FY 2009, since the U.S. government’s estimated service
cost exceeds contributions made by employer agencies and covered employees, this plan
was not fully funded by the Department and its employees. For FY 2009, the Department
has recognized an Imputed Cost and an Imputed Financing Source From Cost Absorbed
by Others for the difference between the estimated service cost and the contributions
made by the Department and its covered employees. For FY 2008, this plan was fully
funded by the Department and its employees.

Employees participating in FERS are covered under the Federal Insurance Contributions
ACT (FICA), for which the Department contributes a matching amount to the Social
Security Administration.

NOAA Corps Retirement System: Active-duty officers of the NOAA Corps are covered
by the NOAA Corps Retirement System, an unfunded, pay-as-you-go, defined-benefit
plan administered by the Department. Participants do not contribute to this plan. Plan
benefits are based primarily on years of service and compensation. Participants, as of
September 30, 2009, included 301 active duty officers, 348 nondisability retiree
annuitants, 18 disability retiree annuitants, and 47 surviving families. Key provisions
include voluntary nondisability retirement after 20 years of active service, disability
retirement, optional survivor benefits, Consumer Price Index (CPI) optional survivor
benefits, and CPI adjustments for benefits.

Foreign Service Retirement and Disability System, and the Foreign Service Pension
System: Foreign Commercial Officers are covered by the Foreign Service Retirement and



                                                                                     13
Disability System and the Foreign Service Pension System. ITA makes contributions to
the systems based on a percentage of an employee’s pay. Both systems are multi
employer plans administered by the U.S. Department of State. The Department is not
responsible for and does not report plan assets, accumulated plan benefits, or liabilities
applicable to its employees. The U.S. Department of State, which administers the plan, is
responsible for and reports these amounts.

Thrift Savings Plan (TSP): Employees covered by CSRS and FERS are eligible to
contribute to the U.S. government’s TSP, administered by the Federal Retirement Thrift
Investment Board. A TSP account is automatically established for FERS-covered
employees, and the Department makes a mandatory contribution of one percent of basic
pay. Beginning in January 2008, FERS and CSRS covered employees have no limit on
the percentage of pay contributed to their TSP account. However, the total contribution
for 2009 may not exceed the IRS limit of $16.5 thousand. The Department makes no
matching contributions for CSRS-covered employees. TSP participants age 50 or older
who are already contributing the maximum amount of contributions for which they are
eligible may also make catch-up contributions, subject to the IRS dollar limit for catch-up
contributions.

Federal Employees Health Benefit (FEHB) Program: Most Departmental employees are
enrolled in the FEHB Program, which provides post-retirement health benefits. OPM
administers this program and is responsible for the reporting of liabilities. Employer
agencies and covered employees are not required to make any contributions for post
retirement health benefits. OPM calculates the U.S. government’s service cost for
covered employees each fiscal year. The Department has recognized the entire service
cost of these post-retirement health benefits for covered employees as an Imputed Cost
and an Imputed Financing Source From Cost Absorbed by Others.

NOAA Corps Post-retirement Health Benefits: Active-duty officers of the NOAA Corps
are covered by the health benefits program for the NOAA Corps, which provides post
retirement health benefits. This is a pay-as-you-go plan administered by the Department.
Participants do not make any contributions to this plan.

Federal Employees Group Life Insurance (FEGLI) Program: Most Department
employees are entitled to participate in the FEGLI Program. Participating employees can
obtain basic term life insurance, with the employee paying two-thirds of the cost and the
Department paying one-third. Additional coverage is optional, to be paid fully by the
employee. The basic life coverage may be continued into retirement if certain
requirements are met. OPM administers this program and is responsible for the reporting
of liabilities. For each fiscal year, OPM calculates the U.S. government’s service cost for
the post-retirement portion of basic life coverage. Because the Department’s
contributions to the basic life coverage are fully allocated by OPM to the pre-retirement
portion of coverage, the Department has recognized the entire service cost of the post
retirement portion of basic life coverage as an Imputed Cost and an Imputed Financing
Source From Cost Absorbed by Others.




                                                                                        14
Q. Use of Estimates

The preparation of financial statements requires the Department to make estimates and
assumptions that affect these financial statements. Actual results may differ from those
estimates.

R. Tax Status

The Department is not subject to federal, state, or local income taxes. Accordingly, no
provision for income taxes is recorded.

S. Fiduciary Activities

Fiduciary activities are the collection or receipt, and the management, protection,
accounting, and disposition by the U.S. government of cash or other assets in which non-
federal individuals or entities have an ownership interest that the U.S. government must
uphold. Fiduciary cash and other assets are not assets of the U.S. government, and,
accordingly, are not recognized in the accompanying consolidated financial statements.

The Department’s fiduciary activities consists of the following: The Patent Cooperation
Treaty authorizes USPTO to collect patent filing and search fees on behalf of the World
Intellectual Property Organization (WIPO), European Patent Office, Korean Intellectual
Property Office, and the Australian Patent Office, from U.S. citizens requesting an
international patent. The Madrid Protocol Implementation Act authorizes USPTO to
collect trademark application fees on behalf of the International Bureau of WIPO from
U.S. citizens requesting an international trademark. These fiduciary activities for
FY 2009 are reported in FR Notes Report No. 27, Fiduciary Activities.




                                                                                     15
                                  U.S Department of Treasury
                          Governmentwide Financial Reporting System
                   Additional Note to the Special-Purpose Financial Statements
                            Entity – 1300 Department of Commerce

Attachment B: FR Notes Report Note 11 - Federal Employee and Veteran Benefits Payable
(Text Data)

4) Provide the long- term projection of the significant assumptions used in determining the
postretirement health benefits liability and the related expense (example of assumptions:
actuarial, economic, interest rate, and trend).

Answer:
FY 2009 and FY 2008: The medical trend assumptions listed in Table A below represent the
assumed increase in expected medical claim rates. These assumptions are the same as those used
by the Department of Defense in projecting the liabilities for the U.S. Military retirees.

                                             Table A
                                  Medical Trend Assumptions
                              Assumed Increase in Medical Expenses
                                 MTF (Direct Care) and TRICARE
                                         Non-Medicare
                                MTF (Direct Care)        TRICARE
       From FY:   To FY:      Inpatient   Outpatient   Prescription   Inpatient   Outpatient   Prescription
                                                       Drugs                                   Drugs
       2009       2010        4.18%        4.18%       4.18%          5.41%       9.94%        7.28%
       2010       2011        4.27%        4.27%       4.27%          5.44%       9.71%        7.22%
       2011       2012        4.36%        4.36%       4.36%          5.48%       9.50%        7.15%
       2012       2013        4.45%        4.45%       4.45%          5.51%       9.29%        7.09%
       2013       2014        4.54%        4.54%       4.54%          5.54%       9.09%        7.04%
       2014       2015        4.63%        4.63%       4.63%          5.58%       8.91%        6.98%
       2015       2016        4.72%        4.72%       4.72%          5.61%       8.73%        6.93%
       2016       2017        4.81%        4.81%       4.81%          5.65%       8.55%        6.88%
       2017       2018        4.90%        4.90%       4.90%          5.69%       8.39%        6.83%
       2018       2019        4.99%        4.99%       4.99%          5.72%       8.23%        6.79%
       2019       2020        5.08%        5.08%       5.08%          5.76%       8.07%        6.74%
       2020       2021        5.17%        5.17%       5.17%          5.80%       7.92%        6.70%
       2021       2022        5.26%        5.26%       5.26%          5.83%       7.77%        6.66%
       2022       2023        5.35%        5.35%       5.35%          5.87%       7.62%        6.62%
       2023       2024        5.44%        5.44%       5.44%          5.91%       7.48%        6.58%
       2024       2025        5.53%        5.53%       5.53%          5.95%       7.33%        6.54%
       2025       2026        5.62%        5.62%       5.62%          5.98%       7.19%        6.50%
       2026       2027        5.71%        5.71%       5.71%          6.02%       7.06%        6.46%
       2027       2028        5.80%        5.80%       5.80%          6.06%       6.92%        6.43%
       2028       2029        5.89%        5.89%       5.89%          6.10%       6.78%        6.39%
       2029       2030        5.98%        5.98%       5.98%          6.14%       6.65%        6.36%
       2030       2031        6.07%        6.07%       6.07%          6.17%       6.52%        6.32%
       2031       2032        6.16%        6.16%       6.16%          6.21%       6.38%        6.28%
       Ultimate               6.25%       6.25%        6.25%          6.25%        6.25%       6.25%


                                                                                                    1
                          Table A (Cont’d) Medicare
                       MTF (Direct Care)       TRICARE
From FY:   To FY:   Inpatient   Outpatient   Prescription   Inpatient   Outpatient   Prescription
                                             Drugs                                   Drugs
2009       2010     3.58%        4.21%       3.00%          4.58%       5.21%        8.23%
2010       2011     3.34%        3.83%       3.41%          4.34%       4.83%        8.06%
2011       2012     3.37%        4.01%       3.81%          4.37%       5.01%        7.90%
2012       2013     3.62%        4.54%       4.22%          4.62%       5.54%        7.75%
2013       2014     3.58%        4.48%       4.63%          4.58%       5.48%        7.61%
2014       2015     3.71%        4.65%       5.03%          4.71%       5.65%        7.48%
2015       2016     3.76%        5.38%       5.44%          4.76%       6.38%        7.35%
2016       2017     3.90%        5.87%       5.84%          4.90%       6.87%        7.23%
2017       2018     4.04%        5.89%       6.25%          4.98%       6.83%        7.11%
2018       2019     4.19%        5.91%       6.25%          5.07%       6.79%        7.05%
2019       2020     4.34%        5.94%       6.25%          5.15%       6.75%        6.99%
2020       2021     4.49%        5.96%       6.25%          5.24%       6.71%        6.94%
2021       2022     4.63%        5.99%       6.25%          5.32%       6.67%        6.88%
2022       2023     4.78%        6.01%       6.25%          5.40%       6.64%        6.82%
2023       2024     4.93%        6.03%       6.25%          5.49%       6.60%        6.76%
2024       2025     5.07%        6.06%       6.25%          5.57%       6.56%        6.71%
2025       2026     5.22%        6.08%       6.25%          5.66%       6.52%        6.65%
2026       2027     5.37%        6.11%       6.25%          5.74%       6.48%        6.59%
2027       2028     5.51%        6.13%       6.25%          5.83%       6.44%        6.53%
2028       2029     5.66%        6.15%       6.25%          5.91%       6.40%        6.48%
2029       2030     5.81%        6.18%       6.25%          6.00%       6.37%        6.42%
2030       2031     5.96%        6.20%       6.25%          6.08%       6.33%        6.36%
2031       2032     6.10%        6.23%       6.25%          6.17%       6.29%        6.31%
Ultimate            6.25%       6.25%        6.25%          6.25%        6.25%       6.25%




                                                                                          2
                           U.S Department of Treasury
                   Governmentwide Financial Reporting System
            Additional Note to the Special-Purpose Financial Statements
                     Entity – 1300 Department of Commerce

Attachment C: FR Notes Report Note 22 - Earmarked Funds (Text Data)

1) Provide a general description of the individual earmarked funds reported in the
Other Notes Info tab (SFFAS No. 27, par.33). Also describe how the entity accounts
for and reports the fund (SFFAS No. 27, par 23.1).

Answer:
FY 2009 and FY 2008:
The USPTO Earmarked Funds consist of its Salaries and Expenses Fund, and the
Patent and Trademark Surcharge Fund. The Salaries and Expenses Fund contains monies
used for the administering of the laws relevant to patents and trademarks and advising the
Secretary of Commerce, the President of the United States, and the Administration on
patent, trademark, and copyright protection, and trade-related aspects of intellectual
property. This fund is used for USPTO’s two core business activities—granting patents
and registering trademarks—that promote the use of intellectual property rights as a
means of achieving economic prosperity. These activities give innovators, businesses,
and entrepreneurs the protection and encouragement they need to turn their creative ideas
into tangible products, and also provide protection for their inventions and trademarks.
Since FY 1993, the Salaries and Expenses Fund has been funded primarily by the
collection of fees for patent and trademark services. The USPTO may use monies from
this fund only as authorized by Congress via appropriations. The Patent and Trademark
Surcharge Fund, a Special Fund Receipt Account at Treasury. The USPTO may use
monies from this account only as authorized by Congress and made available by the
issuance of a Treasury warrant. As of September 30, 2009, $233.5 million is held in this
fund.

The NTIA Digital Television Transition and Public Safety Fund makes digital
television available to every home in America, improves communications between local,
state, and federal agencies, allows smaller television stations to broadcast digital
television, and improves how warnings are received when disasters occur. NTIA received
funding from borrowings from the Bureau of Public Debt, and repaid the Bureau of
Public Debt from the proceeds of the auction of recovered analog spectrum which was
completed in March 2008. The proceeds from the auction provide funding for several
programs, and has been and is expected to be further used to reduce the National Deficit.
The law establishing this program can be found in the Deficit Reduction Act of 2005,
P.L. 109-171 Section 3001-3014.

The Coastal Zone Management Fund, operated by NOAA, is primarily used for
interstate projects, demonstration projects for improving coastal zone management, and
emergency grants to state coastal zone management agencies to address unforeseen or



                                                                                         1
disaster-related circumstances. The law establishing the Coastal Zone Management Fund
can be found in 16 USC Section 1456a.

The NTIS Revolving Fund is used to collect, process, market, and disseminate
government-sponsored and foreign scientific, technical, and business information, and to
assist other agencies with their information programs. Activities funded by the NTIS
Revolving Fund allow customers, both public and private, access to scientific and
technical information produced by and for the federal government. All receipts from the
sale of products and services are deposited in this fund, and all expenses, including
capital expenditures, are paid from it.

The Damage Assessment and Restoration Revolving Fund receives monies for the
reimbursement of expenses related to oil or hazardous substance spill response activities,
or natural resource damages assessment, restoration, rehabilitation, replacement, or
acquisition activities conducted by NOAA. The recovered sums by a federal, state,
indian, or foreign trustee for natural resource damages is retained by the trustee and is
only used to reimburse or pay costs incurred by the trustee for the damaged natural
resources. The law establishing the Damage Assessment and Restoration Revolving Fund
can be found in 33 USC Section 2706. Natural Resources.

FY 2009 Only:
The Broadband Technology Opportunities Program - Recovery Act includes funds
from the American Recovery and Reinvestment Act of 2009 (Recovery Act) that
provides awards to eligible entities to develop and expand broadband services to rural
and underserved areas and improve access to broadband by public safety agencies.
Specifically, funds will be used for innovative programs that encourage sustainable
adoption of broadband services, to upgrade technology and capacity at public computing
centers, including community colleges and public libraries, and for the development and
maintenance of statewide broadband inventory maps.

The Digital-to-Analog Converter Box Program - Recovery Act includes funds from
the Recovery Act that allowed NTIA to issue coupons to households to ensure vulnerable
populations were prepared for the transition from analog-to-digital television
transmission.




                                                                                          2
                            U.S Department of Treasury
                    Governmentwide Financial Reporting System
             Additional Note to the Special-Purpose Financial Statements
                      Entity – 1300 Department of Commerce

Attachment D: FR Notes Report Note 25 - Stewardship Land (Text Data)

   1. Describe the predominant uses of the stewardship land (SFFAS 29, par.
      40c).
   3. Provide a brief statement explaining how the stewardship land relates to the
      mission of the agency (SFFAS No. 29, par. 40a).

Answer to 1. and 3.:
Stewardship Marine Sanctuaries, Marine National Monuments, and Conservation
Area:
NOAA maintains the following Stewardship PP&E, which are similar in nature to
stewardship land:

FY 2009 and FY 2008:
National Marine Sanctuaries: In 1972, Congress passed the Marine Protection,
Research, and Sanctuaries Act (Act) in response to a growing awareness of the intrinsic
environmental and cultural value of coastal waters. The Act authorized the Secretary of
Commerce to designate discrete areas as National Marine Sanctuaries. These protected
waters provide a secure habitat for species close to extinction, and also protect
historically significant shipwrecks and prehistoric artifacts. The sanctuaries are also used
for recreational diving and sport fishing, and support valuable commercial industries such
as fishing and kelp harvesting. As of September 30, 2009, 13 National Marine
Sanctuaries, which include near-shore coral reefs and open ocean, have been designated,
covering a total area of nearly 19,000 square miles. Each individual sanctuary site
(Monterey Bay, the Florida Keys, the Olympic Coast, and Channel Island are the largest
four) conducts research and monitoring activities to characterize existing resources and
document changes.

Papahãnaumokuãkea Marine National Monument: The majority of all coral reef
habitats located in U.S. waters surround the Northwestern Hawaiian Islands (NWHI). The
NWHI Coral Reef Ecosystem Reserve is the nation’s largest marine protected area, and
was established by Executive Orders in December 2000 and January 2001, in accordance
with the National Marine Sanctuaries Amendments Act of 2000. On June 15, 2006, the
President created the world’s second largest marine conservation area off the coast of the
northern Hawaiian Islands. This conservation area, designated the Northwestern
Papahãnaumokuãkea Marine National Monument, encompasses nearly 140,000 square
miles of U.S. waters, including approximately 5,200 square miles of relatively
undisturbed coral reef habitat that is home to more than 7,000 species. The Monument
will be managed by NOAA, with the Department of the Interior, and the State of Hawaii.




                                                                                          1
Aleutian Islands Habitat Conservation Area: On July 28, 2006, NOAA Fisheries
Service formally established the Aleutian Islands Habitat Conservation Area in Alaska,
which covers nearly 370,000 square miles and may harbor among the highest diversity of
deep-water corals in the world. The conservation area established a network of fishing
closures in the Aleutian Islands and Gulf of Alaska, and protects habitat for deep water
corals and other sensitive features that are slow to recover once disturbed by fishing gear
or other activities. Six small areas that include fragile coral gardens discovered by NOAA
Fisheries Service scientists will be closed to all bottom-contact fishing gear. This effort is
part of a network of new marine protected areas in Alaskan waters designed to protect
essential fish habitat and prevent any further damage of the area.

FY 2009 Only:
Rose Atoll Marine National Monument: On January 6, 2009, President Bush designated
Rose Atoll in American Samoa a Marine National Monument. The atoll includes the
Rose Atoll National Wildlife Refuge. It also includes about 20 acres of land and 1,600
acres of lagoon and is one of the most pristine atolls in the world. The areas around the
atoll support a dynamic reef ecosystem that is home to many land and marine species,
many of which are threatened or endangered. The Department of the Interior has primary
management responsibility of the atoll while NOAA has primary management
responsibility for the marine areas of the monument seaward of mean low water, with
respect to fishery-related activities regulated pursuant to the Magnuson-Stevens Fishery
Conservation and Management Act (16 U.S.C. 1801 et seq.) and any other applicable
authorities. Management strategies will be developed in coming years.

Marianas Trench Marine National Monument: On January 6, 2009, President Bush
designated the Marianas Trench Marine National Monument. The Monument consists of
approximately 95,000 square miles of submerged lands and waters of the Mariana
Archipelago. It includes three units: the Islands Unit, the waters and submerged lands of
the three northernmost Mariana Islands; the Volcanic Unit, the submerged lands within 1
nautical mile of 21 designated volcanic sites; and the Trench Unit, the submerged lands
extending from the northern limit of the Exclusive Economic Zone of the United States in
the Commonwealth of the Northern Marianas Islands (CNMI) to the southern limit of the
Exclusive Economic Zone of the U.S. in the Territory of Guam. No waters are included
in the Volcanic and Trench Units, and CNMI maintains all authority for managing the
three islands within the Islands Unit (Farallon de Pajaros or Uracas, Maug, and
Asuncion) above the mean low water line. The Department of the Interior has primary
management responsibility for the monument while NOAA has primary management
responsibility with respect to fishery-regulated activities regulated pursuant to the
Magnuson-Stevens Fishery Conservation and Management Act and any other applicable
authorities. NOAA will develop a management plan, and, with the Department of the
Interior, establish an advisory council for the Monument. These actions will require the
preparation of associated National Environmental Policy Act documentation.

Pacific Remote Islands Marine National Monument: On January 6, 2009, President
Bush designated the Pacific Remote Islands Marine National Monument. The Pacific
Remote Islands area consists of Wake, Baker, Howland, and Jarvis Islands, Johnston



                                                                                            2
Atoll, Kingman Reef, and Palmyra Atoll, which lie to the south and west of Hawaii. With
the exception of Wake Island, these islands are administered as National Wildlife
Refuges by the U.S. Fish and Wildlife Service of the Department of the Interior. They
sustain many endemic species including corals, fish, shellfish, marine mammals,
seabirds, water birds, land birds, insects, and vegetation not found elsewhere.

NOAA has primary responsibility for management of the monument seaward of the area
12 nautical miles of the mean low water lines of Wake, Baker, Howland, and Jarvis
Islands, Johnston Atoll, Kingman Reef, and Palmyra Atoll, with respect to fishery-related
activities regulated pursuant to the Magnuson-Stevens Fishery Conservation and
Management Act and any other applicable legal authorities. Management strategies will
be developed in coming years.




                                                                                        3
                            U.S Department of Treasury
                    Governmentwide Financial Reporting System
             Additional Note to the Special-Purpose Financial Statements
                      Entity – 1300 Department of Commerce


Attachment E: FR Notes Report Note 26 – Heritage Assets (Text Data)

1) Provide a brief statement explaining how heritage assets relate to the mission of
the agency (SFFAS 29, par. 25a).

Answer:
FY 2009 and FY 2008:
NOAA’s collection-type heritage assets are comprised primarily of books, journals,
publications, photographs and motion pictures, manuscripts, records, nautical chart
plates, and artifacts. Many of these heritage assets are maintained by the NOAA Central
Library (Library). As evidenced by a search of international catalogs, 35 to 50 percent of
the Library’s collection is unique. Historically, 40 percent of the items catalogued are not
found anywhere else. Many older books cannot be replaced. The works include 17th
century works of Francis Bacon and Robert Boyle, 18th century works of Daniel
Bernouilli, Daniel Defoe, and Pierre Bougher, and 19th and 20th century works of
Benjamin Franklin and George Washington Carver. The Library has an extensive
collection of historical Coast and Geodetic Survey materials (from 1807) and Weather
Bureau materials (from the 1830s), including foreign and historical meteorological data,
information on instruments, and metadata.

NOAA’s collection-type heritage assets include items in the Thunder Bay Sanctuary
Research Collection (Collection). In 2004, the Thunder Bay National Marine Sanctuary
(jointly managed by NOAA and the State of Michigan to protect and interpret a
nationally significant collection of shipwrecks and other maritime heritage resources)
established an agreement with the Alpena County George N. Fletcher Public Library to
jointly manage this Collection. Amassed over a period of more than 40 years by historian
C. Patrick Labadie, the Collection includes information about such diverse subjects as
Great Lakes ports and waterways, docks, cargoes, ships, shipbuilders, owners and fleets,
machinery and rigging, notable maritime personalities, and shipwrecks. Special features
of the Collection are extensive collections of a) data cards listing most of the ships on the
Great Lakes before year 1900, a roster of some 15,000 vessels complete with descriptive
data and highlights of the ships’ careers and their ultimate losses; and b) ship photograph
negatives of 19th and 20th century Great Lakes ships. Heritage assets also include copies
of vessel ownership documents, contemporary ship photographs, books, and other items
documenting the Great Lakes history.

NOAA’s collection-type heritage assets also include items in the National Climatic Data
Center Library. Heritage assets include a) books, manuals, and slides; b) thermometers,
gauges, and radiosondes; and c) laboratory equipment.




                                                                                            1
NOAA also maintains the following non-collection type heritage assets (historical
buildings and structures): 1) Galveston Laboratory; 2) National Marine Fisheries Service
(NMFS) St. George Sealing Plan; 3) NMFS Cottage M, St. George; 4) NMFS St. Paul
Old Clinic/Hospital; 5) NMFS Aquarium, and 6) Office of Atmospheric Research Great
Lakes Environmental Research Laboratory (GLERL), Lake Michigan Field Station.

NIST currently maintains collection-type heritage assets under its Museum and History
Program, which collects, conserves, and exhibits artifacts, such as scientific instruments,
equipment, objects, and records of significance to NIST and predecessor agencies. This
program provides institutional memory and demonstrates the contributions of NIST to the
development of standards measurement, technology, and science. The Information
Services Division (ISD) maintains the historical archives, rare book collection, and
oversees the oral history program. The historical archives and rare book collection
contain titles that are considered “classics” of historical scientific interest, books by
prominent contemporary scientists, and books by NIST authors or about NIST work.
Titles are recommended for inclusion by ISD staff and customers. Materials are not
specifically purchased for the collection nor are funds specifically allocated for the
collection. Photos and manuscripts include images of NIST staff, facilities, and artifacts
that demonstrate NIST accomplishments.

Collection-type heritage assets maintained by Census Bureau are items considered unique
for their historical, cultural, educational, technological, methodological, or artistic
importance. They help illustrate the social, educational, and cultural heritage of the
Census Bureau. Some items because of their age or obvious historical significance are
inherently historical artifacts. Some examples of these historical artifacts include: 1900
Hollerith Key Punch, Hollerith Tabulator (Dial), Gang Punch, Pantograph, Census
Bureau Enumerators Badge Data, Data Stewardship Button, Steel Hand Bander, Unisys
Tape and Reel, Film Optical Sensing Device for Input to Computers (FOSDIC), and
Artwork and Gifts.

2) Provide a brief description of the agency's stewardship policies for each major
category of the heritage assets (SFFAS 29, par. 25b).

Answer:
FY 2009 and FY 2008:

NOAA has established policies for heritage assets to ensure the proper care and handling
of these assets under its control or jurisdiction. The Deputy Under Secretary of NOAA
has established the Heritage Assets Working Committee to administer NOAA’s
stewardship policies and procedures. In carrying out these policies and procedures, the
Working Committee:

   x   Maintains a nationwide inventory of heritage assets, ensuring that they are
       identified and recorded in the Personal Property Heritage Asset Accountability
       System;




                                                                                         2
   x   Establishes nationwide NOAA policies, procedures, and standards for the
       preservation, security, handling, storage, and display of NOAA heritage assets;
   x   Tracks and updates each loan of NOAA heritage assets, including assigning
       current values and inventory numbers, and reporting the current condition of
       heritage assets;
   x   Determines the feasibility of new asset loans, such as meters, standard tide
       gauges, portraits, and books for exhibit loans;
   x   Collects heritage assets and properties of historic, cultural, artistic, or educational
       significance to NOAA.

NIST’s Museum and History Program has policies in place for acquisitions and loans.
Objects are either on display or in storage and are not used by visitors. Archives,
including the historical book collection, are used according to established research library
policies and procedures. When considering artifacts for accession, the following criteria
are considered:
        - Direct connection to NIST program activity
        - Direct connection to a NIST prominent person
        - Physical size
        - Safety considerations

Archive material is not loaned. Artifacts are rarely loaned, but can be loaned within
established policies and procedures for educational purposes, scholarly research, and
limited public exhibition to qualified institutions. The loan policy packet for these atifacts
includes an introduction to the NIST Loan Program, Borrower Checklist, Artifact Loan
Request, NIST Loan Policy, Insurance Requirements, Facilities Report, Outgoing Loan
Agreement, Condition Report Form, and Outgoing Loan Process.

ISD preserves and promotes the history of NIST through a program that collects,
organizes, and preserves records of enduring value and encourages and supports their use
by researchers. The policies and procedures cover such topics as submitting reference
inquiries, regulations for use of the archives collection, scope of archives collection,
criteria for accepting archival material, providing physical and bibliographic access,
preservation, and reviewing the collection.

FY 2009 Only:
Census Bureau has developed a Project Charter for heritage assets which has developed
policy and procedures for the acquisition and removal of Census Bureau heritage assets.
If a Census Bureau employee receives a gift from a foreign government’s statistical
agency or any other agency while on official government travel, the Census Bureau
employee will deliver the item to a member of Census Bureau’s Heritage Assets
Committee for review upon his or her return to Census Bureau, if the item is valued at
more than $25 dollars. The Committee will decide if the item meets the criteria for a
heritage asset based on the uniqueness, historical age, and/or if the item helps to illustrate
Census Bureau’s historic contributions to the nation’s growth. If the item is deemed a
heritage asset, the applicable property management office will ensure the heritage asset is
catalogued and stored in a safe, secure environment, allowing for appropriate


                                                                                             3
preservation and conservation. All necessary actions will be taken to reduce deterioration
of heritage assets due to environmental conditions, and to limit damage, loss, and misuse
of heritage assets. The Committee meets on a regular basis to determine if any heritage
assets should be removed from the approved list, or if a newly arrived item should be
classified as a heritage asset. Once a determination has been made to no longer classify
an item as a heritage asset, Census Bureau will follow any applicable established policies
and procedures for surplus property.


FY 2008 Only:
Census Bureau has established policies and procedures for the overall process for
heritage assets for the categories of “Collectible Assets” and “Artwork, Books, and Gifts”
The policies and procedures will mirror those established for the management of
accountable property and sensitive items in regards to the receiving, maintenance, and
accessing of personal property. The Census Bureau applicable property management
office will ensure all heritage assets are catalogued and stored in a safe, secure,
environment allowing for appropriate preservation and conservation. All necessary
actions will be taken to reduce deterioration due to environmental conditions, and to limit
damage, loss, and misuse of heritage assets.




                                                                                         4
                            U.S Department of Treasury
                    Governmentwide Financial Reporting System
             Additional Note to the Special-Purpose Financial Statements
                      Entity – 1300 Department of Commerce


Attachment F: Other Data Note 9 – Stewardship Investments (Text Data)

Section A: Investment in Non-Federal Physical Property (SFFAS No. 8, par 87)

2. Provide a description of the major programs of Federal investments in non-Federal
property used. (SFFAS No. 8, par 87)

Answer:
FY 2009 and FY 2008:

Non-federal physical property investments are expenses included in the Department’s Net
Cost of Operations for the purchase, construction, or major renovation of physical
property owned by state and local governments. Based on a review of the Department’s
programs, NOAA and EDA have significant investments in non-federal physical
property.

NOAA:

National Estuarine Research Reserves (NERR): The NERR system consists of 27
estuarine reserves protected by federal, state, and local partnerships that work to preserve
and protect the nation’s estuaries. The NERR system helps to fulfill NOAA’s stewardship
mission to sustain healthy coasts by improving the nation’s understanding and
stewardship of estuaries. Estuarine reserves are the areas where freshwater from rivers
meet the ocean. These areas are known as bays, swamps, sloughs, and sounds. These
important coastal habitats are used as spawning grounds and nurseries for the nation’s
commercial fish and shellfish. Estuaries filter much of the polluted runoff from rivers and
streams that would otherwise contaminate oceans. The reserves were created with the
passage of the Coastal Zone Management Act of 1972, and, as of
September 30, 2009, encompassed approximately 1.3 million acres of estuarine waters,
wetlands, and uplands. The newest reserve, Mission-Aransas, TX, was designated on
May 3, 2006. NERRs are state-operated and managed in cooperation with NOAA.
NOAA’s investments in non-federal physical property are for the acquisition of lands and
development or construction of facilities, auxiliary structures, and public access routes
for any NERR site.

Coastal and Estuarine Land Conservation Program: This program was established
under the Commerce, Justice, and State Appropriations Act of 2002, “for the purpose of
protecting important coastal and estuarine areas that have significant conservation,
recreation, ecological, historical, or aesthetic values, or that are threatened by conversion
from their natural or recreational state to other uses.” The investments in non-federal



                                                                                            1
physical property include matching grants awarded to state and local governments for
land acquisition in coastal and estuarine areas. Since FY 2002, matching grants have been
directed to 166 such projects.

Coastal Zone Management Fund: The Coastal Zone Management Program is
authorized by the Coastal Zone Management Act of 1972, and administered at the federal
level by NOAA’s Office of Ocean and Coastal Resource Management. The investments
in non-federal physical property include incidental expenses of land acquisition, and low-
cost construction on behalf of various state and local governments, for the purpose of
preservation or restoration of coastal resources and habitats. NOAA’s financing supports
various coastal states in their redevelopment of deteriorating and urbanized waterfronts
and ports, as well as providing for public access to beaches and coastal areas. The state
and local governments receive funding for these investments through NOAA grant
expenditures, and these grant expenditures also include funding for purposes other than
the investments in non-federal physical property. There is currently not in place a
mechanism for the state and local governments to determine and report to NOAA the
amount of monies they expend for the investments in non-federal physical property. The
Department, accordingly, cannot report the amount of investments in non-federal
physical property for the Coastal Zone Management Fund.

EDA:

Public Works: The Public Works program promotes long-range economic development
in distressed areas by providing investments for vital public infrastructure and
development facilities. These critical investments enable communities to attract new, or
support existing, businesses that will generate new jobs and income for unemployed and
underemployed residents. Among the types of projects funded are water, sewer, fiber
optics, access roads, and facilities such as industrial and business parks, business
incubator and skill training facilities, and port improvements.

Economic and Defense Adjustments: The Economic and Defense Adjustments program
provides flexible investments for communities facing sudden or severe economic distress
to diversify and stabilize its economy. Factors that seriously threaten the economic
survival of local communities include essential plant closures, military base closures or
realignments, defense laboratory or contractor downsizings, natural resource depletion,
out-migration, under-employment, and destructive impacts of foreign trade.

Global Climate Change Mitigation Incentive Fund (GCCMIF): The GCCMIF
program was established to strengthen the linkage between economic development and
environmental quality. The purpose and mission of the GCCMIF program is to finance
projects that foster economic development by advancing the green economy in distressed
communities. The GCCMIF program is the development and use of products and services
that contribute to economic growth and alleviate economic distress by respecting and
revitalizing the environment. The GCCMIF program supports projects that create jobs
through, and increase private capital investment in, efforts to limit the nation’s




                                                                                           2
dependence on fossil fuels, enhance energy efficiency, curb greenhouse gas emissions,
and protect natural systems.

Disaster Recovery: The Disaster Recovery program awards grants for the repair of
infrastructure and economic development related facilities damaged by floods and other
natural disasters. Funding for the Disaster Recovery program is generally through
supplemental funding from Congress for recovery efforts to save, sustain, and preserve
private enterprise and job creation in economically distressed communities.

Section B: Research and Development: Investment in Development (SFFAS No. 8,
par. 94, 99 & 100)

1. Provide a description of the major programs of Federal investments in development.
(SFFAS No. 8, par. 100)

Answer:
FY 2009 and FY 2008:

Investments in R&D are expenses that are included in the Department’s Net Cost of
Operations. The investments are divided into three categories: (1) basic research, the
systematic study to gain knowledge or understanding of the fundamental aspects of
phenomena and of observable facts without specific applications toward processes or
products in mind; (2) applied research, the systematic study to gain knowledge or
understanding necessary for determining the means by which a recognized and specific
need may be met; and (3) development, the systematic use of the knowledge and
understanding gained from research for the production of useful materials, devices,
systems, or methods, including the design and development of prototypes and processes.
The investments are made with the expectation of maintaining or increasing national
economic productive capacity, or yielding other future economic or societal benefits.
Based on a review of the Department’s programs, the only significant investments in
R&D are by NIST and NOAA.

NIST:

NIST Laboratories Program:

NIST Laboratories have been the stewards of the nation’s measurement infrastructure
since their inception in 1901 as the National Bureau of Standards. NIST Laboratories
foster scientific and technological leadership by helping the U.S. to drive and take
advantage of the increased pace of technological change, fostering more efficient
transactions in the domestic and global marketplace, and addressing other critical needs
assigned to NIST by the Administration and Congress. In support of the American
Competitiveness Initiative, NIST develops and disseminates measurement techniques,
reference data, test methods, standards, and other infrastructural technologies and
services required by U.S. industry, government, and academia to compete in the 21st




                                                                                           3
century. NIST laboratories promote innovation, facilitate trade, and ensure public safety
and security by strengthening the nation’s measurement and standards infrastructure.

The American Recovery and Reinvestment Act of 2009 included $250 million in funding
for NIST laboratory research, measurements, and other services supporting economic
growth and U.S. innovation through funding of such items as competitive grants, research
fellowships, advanced measurement equipment and supplies, standards-related research
that supports the security and interoperability of electronic medical records to reduce
health care costs and improve the quality of care, and development of a comprehensive
framework for a nationwide, fully interoperable smart grid for the U.S. electric power
system. This funding will result in additional R&D investments for the NIST
Laboratories Program.

Advanced Technology Program (ATP)/Technology Innovation Program (TIP):

ATP is a cost-shared funding program for businesses that was intended to develop new
technologies for commercial use. ATP was abolished by the America COMPETES Act,
which was signed into law by President Bush on August 9, 2007. This same Act
established TIP, which supports, promotes, and accelerates innovation in the United
States by offering cost-shared funding for high-risk, high-reward research in areas of
critical national need.

Critical national need areas in TIP are those for which government attention is demanded
because the magnitude of the problem is large and the societal challenges that need to be
overcome are not being addressed. TIP was explicitly established within NIST to assist
U.S. small- and medium-size businesses, institutes of higher education, national
laboratories, and non-profit research organizations to conduct high-risk, high-reward
research that has the potential for yielding transformational results with wide-reaching
implications, and that is within NIST’s areas of technical competence. The America
COMPETES Act statute allows for continued support for previously awarded ATP
projects and new TIP awards.

NOAA:

NOAA conducts a substantial program of environmental R&D in support of its mission,
much of which is performed to improve the United States’ understanding of and ability to
predict environmental phenomena. The scope of research includes:

   x   Improving predictions and warnings associated with the weather, on timescales
       ranging from minutes to weeks;
   x   Improving predictions of climate, on timescales ranging from months to centuries;
   x   Improving understanding of natural relationships to better predict and manage
       renewable marine resources and coastal and ocean ecosystems.

NOAA also conducts research that is intended to provide a solid scientific basis for
environmental policy-making in government. Examples of this research include


                                                                                            4
determining the stratospheric ozone-depleting potential of proposed substitutes for
chlorofluorocarbons (CFCs), and identifying the causes of the episodic high rural ozone
levels that significantly damage crops and forests.

NOAA conducts most R&D in-house; however, contractors to NOAA undertake most
systems R&D. External R&D work supported by NOAA includes that undertaken
through federal-academic partnerships such as the National Sea Grant College Program,
the Cooperative Institutes of the Environmental Research Laboratories, the Climate and
Global Change Program, and the Coastal Ocean Program.

Here is a brief description of the major R&D programs of NOAA:

Environmental and Climate: The Office of Oceanic and Atmospheric Research is
NOAA’s primary research and development office. This office conducts research in three
major areas: climate research; weather and air quality research; and ocean, coastal, and
Great Lakes research. NOAA’s research laboratories, Climate Program Office, and
research partners conduct a wide range of research into complex climate systems,
including the exploration and investigation of ocean habitats and resources. NOAA’s
research organizations conduct applied research on the upper and lower atmosphere as
well as the space environment.

Fisheries: NOAA’s NMFS is responsible for the management and stewardship of living
marine resources and their habitat within the Nation’s Exclusive Economic Zone. NMFS
manages these resources through science-based conservation and management, and the
protection and restoration of healthy ecosystems to ensure their continuation as
functioning components of ecosystems, while also affording economic opportunities and
enhancing the quality of life for the American public. Fishery stocks and protected
species are surveyed, catch data are collected, and research is conducted to better
understand the variables affecting the abundance and variety of marine fishes and
protected species. Protection of endangered species, restoration of coastal and estuarine
fishery habitats, and enforcement of fishery regulations are primary NOAA activities.
The research and management of living marine resources is conducted in partnership with
states, universities, other countries, and international organizations.

Marine Operations and Maintenance and Aircraft Services: These efforts support
NOAA’s programs requiring operating days and flight hours to collect data at sea and in
the air. NOAA’s Marine and Aviation Operations manage a wide variety of specialized
aircraft and ships to complete NOAA’s environmental and scientific missions. The
aircraft collect the environmental and geographic data essential to NOAA hurricane and
other weather and atmospheric research, conduct aerial surveys for hydrologic research to
help predict flooding potential from snowmelt, and provide support to NOAA’s fishery
research and marine mammal assessment programs. NOAA’s ship fleet provides
oceanographic and atmospheric research and fisheries research vessels to support
NOAA’s strategic plan elements and mission.




                                                                                          5
Weather Service: The National Weather Service conducts applied research and
development, building upon research conducted by NOAA laboratories and the academic
community. Applied meteorological and hydrological research is integral to providing
more timely and accurate weather, water, and climate services to the public.

Other Programs: As a national lead for coastal stewardship, National Ocean Service
promotes a wide range of research activities to create the strong science foundation
required to advance the sustainable use of precious coastal systems. Understanding of the
coastal environment is enhanced through coastal ocean activities that support science and
resource management programs. The National Environmental Satellite Data and
Information Service, through its Office of Research and Applications, conducts
atmospheric, climatological, and oceanic research into the use of satellite data for
monitoring environmental characteristics and their changes. It also provides guidance for
the development and evolution of spacecraft and sensors to meet future needs.

2. Provide a description of the progress of major development projects including the
results with respect to projects completed or otherwise terminated during the year and
the status of projects that will continue. (SFFAS No. 8, par. 99)

Answer:
FY 2009:

NOAA:

NOAA Extending Operational Use of Bering Sea Shelf Moorings to Ice-Covered
Areas: NOAA scientists are improving long-term biophysical moorings in the Bering
Sea to provide real-time data during the winter when extensive portions of this sea are
covered by sea ice. The moorings provide platforms for NOAA and other scientists to
deploy scientific instruments in this data-poor, but highly productive, region of the world.
Presently, the moorings measure ocean temperature, salinity, fluorescence, nutrients, and
zooplankton abundance; also, passive listening devices record the sounds of marine
mammals. Year-round reporting of data in real-time will provide critical knowledge
about commercial and protected resources of the Bering Sea and improve NOAA’s
delivery of information to guide the stewardship of living marine resources.

Development of a real-time data communications link for under-ice biophysical moorings
continues. NOAA scientists successfully redeployed standard winter moorings in April
2009 after the ice began its seasonal retreat. Several of the replacement moorings had
surface meteorological towers and real time communication capability. Unfortunately,
local weather conditions blew the sea ice back over one of the redeployed moorings (near
the Pribilof Islands) and the mooring was lost. This underscores the difficulty of working
in a marginal ice zone and the value of completing design, testing, and implementation of
moorings in marginal ice zones.

In 2009, scientists purchased their first ice–thickness sensors. The sensors are critical for
determining the magnitude and variability in ice thickness at the mooring sites. They will



                                                                                           6
be deployed in 2010 and will provide the data necessary to write a statement of
requirements for the project engineers.

Cooperative Research on the Application of Passive Acoustics to Integrated Ocean
Observing Systems: This is the second year of a National Ocean Partnership Program
(NOPP) funded study which will continue through late FY 2010 to develop techniques
required to characterize the acoustic environment and health of the Stellwagen Bank
National Marine Sanctuary (SBNMS) ecosystem. This collaborative venture between
NMFS/Northeast Fisheries Science Center (NEFSC), National Ocean Service
(NOS)/SBNMS, Cornell University, and Marine Acoustics, Inc. will monitor the
sanctuary for biological and anthropogenic noise over a continuous 30-month period
using an array of ten passive acoustic Marine Autonomous Recording Units (MARUs).
MARU data allows a comparison of sanctuary noise levels with: (1) baleen whale and
fish distribution, (2) baleen whale audiogram models to estimate the potential for hearing
loss, (3) the sounds produced by baleen whales and fish to determine the potential for
masking, and (4) tagging data of baleen whales to study individual behavioral effects.
NOS has developed methodologies to combine MARU data with that derived from the
U.S. Coast Guard’s Automatic Identification System (AIS) to directly identify the sound
contribution from large commercial vessels and specific vessel classes, including those
many miles from the sanctuary. Researchers are also combining MARU data with
commercial whale watch and fishing vessel tracks obtained from onboard observers to
help understand each industry’s contribution to the sanctuary noise budget.

The ultimate aim of this project is to integrate biological and anthropogenic site
characterizations into an overall sound budget capable of providing a “3-D acoustic
ecosystem snapshot” of the sanctuary. Researchers will do this by establishing an ocean
observing system within the SBNMS and developing cutting edge techniques that can be
applied to other regions or Sanctuaries. In accomplishing these tasks, the project
addresses many of the recommendations made by the National Research Council’s
Committee on the Potential Impacts of Ambient Noise in the Ocean on Marine Mammals.

To date, this project has resulted in two major manuscripts, which redefine and
redirect existing bench marks. These are now in press in Marine Ecology
Progress Series, Theme Section on Marine Acoustics: Clark et al., “Acoustic
Masking in Marine Ecosystems: Intuitions, Analysis, and Implications”; and Van
Parijs et al., “Mitigation, management and research applications of real time and
archival passive acoustic sensors over variable temporal and spatial time scales.”
Furthermore, this project ran an Ocean Noise Symposium at the International
Marine Conservation Congress in May 2009 aimed at demonstrating the tool set
developed for defining ocean noise, evaluating the acoustic communication range
and the effects of anthropogenic sources thereon, and demonstrating how this tool
set can be transposed and used elsewhere.

New AUV for Monitoring Fish and their Habitat in the Pacific: The Northwest
Fisheries Science Center (NWFSC) and the Pacific Islands Fisheries Science Center
(PIFSC) have worked with researchers at Woods Hole Oceanographic Institution



                                                                                         7
(WHOI) to redesign the SeaBed Autonomous Underwater Vehicle (AUV) to improve its
capabilities for monitoring fish populations and habitat in rocky areas. Traditional fish
monitoring techniques, such as trawl surveys, are of limited applicability in such areas
due to the rugged nature of the terrain. Habitat monitoring in high relief areas is also
difficult since towed systems can tangle in very rugged terrain. Hover-capable bottom
tracking AUVs, on the other hand, offer a unique tool that is appropriate for work in such
areas.

The Seabed AUV developed by Hanumant Singh at WHOI is a multi-hull hover-capable
vehicle that, unlike traditional torpedo shaped AUVs, is capable of working extremely
close to the seafloor, while maintaining very precise altitude and navigation control. Its
small footprint, coupled with its 2000m depth rating, makes it an ideal platform for
conducting surveys off the continental shelf on ships ranging from standard NOAA
oceanographic vessels to smaller fishing vessels of opportunity.

Researchers made key modifications in 2008 and this new configuration of the AUV can
simultaneously obtain forward and downward looking bottom imagery to improve the
identification of groundfish in images. This will allow the development of non-extractive
surveys to monitor groundfish in previously un-assessed rocky habitats. The combination
of autonomous operation, hover, and bottom tracking capabilities, along with new camera
configurations, will enhance efforts to quantitatively characterize coral reef ecosystem
habitats and communities as well. Use of the Seabed AUV is expected to provide
significant improvements in the linear kilometers of seafloor that will be imaged and the
resolution and positioning accuracy of the imagery, as well as simultaneously reducing
ship time requirements. Researchers are making the new camera configurations based on
tests conducted in collaboration with the University of Puerto Rico in Spring 2008. They
conducted initial data collections and pilot surveys in the Western Pacific in March 2009.
They tested the new camera configuration and were trained on control software and test
mapping off of Honolulu in early March. In late March, they conducted mapping off the
coast of California in collaboration with Channel Islands Marine Sanctuary. Mapping in
the Sanctuary included mapping in the "footprint" marine protected area and at a 1950's
private plane crash site within the Sanctuary.

Genetic Stock Identification Used to Estimate Chinook Bycatch in Groundfish
Fishery: The Alaska Regional Office recently prepared an Environmental Impact
Statement which highlighted the need to understand the impact of bycatch from the
Bering Sea and Aleutian Islands (BSAI) groundfish fishery on various stocks of Pacific
salmon. Salmon from western Alaska were of particular concern as many populations of
are experiencing significantly low levels of return, dramatically impacting subsistence
and commercial salmon fisheries. In April 2009, the North Pacific Fishery Management
Council established a hard cap for the Chinook salmon bycatch, and is now considering
various protective measures for chum salmon.

In FY 2009, the Alaska Fisheries Science Center’s (AFSC) Auke Bay Laboratories began
a one-year genetic stock identification project to analyze a limited sample from the
Chinook bycatch. AFSC’s North Pacific Groundfish Observer Program collected these



                                                                                             8
samples throughout the 2008 BSAI groundfish fishery as part of a feasibility study. The
objectives of this project are to (1) identify the strata for which sufficient numbers of
samples from the 2008 Chinook bycatch can be analyzed, and (2) produce stock
composition estimates for that limited strata. Although the sampling methods employed
for this pilot study are not likely to yield a sample set representative of the entire bycatch,
the results will give indications of the presence/absence of particular stocks, produce
recommendations for improvements to the sampling protocols, and establish high-
throughput procedures for the efficient analysis of samples from future fisheries.

The AFSC is also working in collaboration with the University of Alaska Fairbanks
School of Fisheries and Ocean Sciences to investigate marine distributions (temporal and
spatial) of chum salmon populations or of regional aggregations of chum salmon in the
Bering Sea using chum bycatch samples collected from 1988 to 2005. Identifying
temporally stable regional stock distributions of chum salmon may help fisheries
managers potentially redirect the groundfish fishery away from aggregations of high-
priority chum stocks. The development of a genetic baseline incorporating both SNP
(single nucleotide polymorphism) and microsatellite markers facilitate this study.
Researchers are completing genotyping this year with results to follow thereafter.

2008 Northwestern Hawaiian Island Reef Assessment and Monitoring Program
Cruise Completed: Scientists from the Coral Reef Ecosystem Division (CRED) within
NMFS’s Pacific Islands Fisheries Science Center (PIFSC) successfully completed the
2008 Northwestern Hawaiian Island Reef Assessment and Monitoring Program (RAMP)
cruise on October 12, 2008. This 32-day cruise aboard the NOAA Ship Hi‘ialakai
conducted biological and oceanographic monitoring in the Northwestern Hawaiian
Islands (NWHI), specifically: French Frigate Shoals, Maro Reef, Laysan Island,
Lisianski Island/Neva Shoals, Pearl and Hermes Atoll (PHA), Kure Atoll, and Midway
Atoll. CRED scientists led the field party that included collaborators from the
PapanƗumokuƗkea Marine National Monument and the Hawaii Department of Aquatic
Resources. The fieldwork yielded several key findings: (1) Large algae blooms were
observed along the northeastern backreef of Midway, along with a more extensive
distribution along the fringing reefs and backreefs at Kure; (2) Only 41 sharks of all
species were recorded during all combined towed-diver surveys, down from previous
years; and (3) Coral bleaching was observed at varying levels at all NWHI, with
relatively low levels for all sites; towed-diver surveys observed higher paling/bleaching
levels of montiporas recorded at PHA in the southwest backreef areas and
paling/bleaching on pocillopora col. on the southwest forereef.

Towed Stereo-camera System Developed: The Southwest Fisheries Science Center
(SWFSC) Fisheries Resources Division’s (FRD) Advanced Survey Technology Group
has developed a towed stereo-camera system for validating acoustic targets and
estimating fish species and sizes while underway at survey speeds of up to 12 knots.
Researchers at the SWFSC successfully trialed the "FasTowCam" in the Puget Sound
during a much abbreviated, ad-hoc period aboard the NOAA ship Miller Freeman. As a
result, SWFSC refined the towing bridle and the actuator belt-drive system to allow the
FasTowCam to track and hold depth stably at speeds ranging from one to ten knots, and
depths to 15 m. Researchers further tested the FasTowCam at ten knots in Puget Sound in


                                                                                              9
early May, and the mechanics, electronics and winch system operated well.

NOAA Scientists Complete Annual Antarctic Marine Ecosystem Survey: The 2008-
2009 U.S. Antarctic Marine Living Resources Survey, conducted by the Antarctic
Ecosystem Research Division at NOAA's SWFSC, represents the 23rd annual survey
conducted in the South Shetland Islands region of Antarctica. The data collected
complement a long-term dataset that is critical to national and international management
of fisheries in the Southern Ocean by the Commission for the Conservation of Antarctic
Marine Living Resources (CCAMLR), of which the U.S. is a Member. Due to recent,
rapid and pervasive ecosystem changes, the survey is also important for the detection and
management of climate change and its effects on international fisheries.
In 2009, NOAA operated two field stations, one jointly with the National Science
Foundation, during the breeding period of land-based Antarctic predators. In addition, the
SWFSC conducted two ship-based surveys: one survey of pelagic (open-water)
zooplankton, seabirds and marine mammals around the South Shetland Islands; and a
second survey of finfish and benthic invertebrates around the South Orkney and South
Shetland Islands.

Pacific Reef Assessment and Monitoring Program Research Cruise to the Main
Hawaiian Islands Completed: Researchers from NOAA’s Coral Reef Ecosystem
Division, the Hawaii Division of Aquatic Resources (DAR), University of Hawaii, San
Diego State University, and National Geographic completed the 2008 Main Hawaiian
Island (MHI) Reef Assessment and Monitoring Program (RAMP) cruise on November
14, 2008. During the 30-day cruise, the researchers conducted integrated ecosystem
assessments of fish, corals, macroinvertebrates, algae, and oceanographic and water
quality around the islands of Hawaii, Maui, Lanai, Molokai, Oahu, Kauai, Niihau, and
Lehua Rock, with a primary focus on reef areas not previously monitored by DAR. For
the first time on a MHI-RAMP cruise, researchers surveyed the microbial community;
tested a National Geographic DropCam system; deployed 36 Autonomous Reef
Monitoring Structures to monitor indices of cryptic invertebrate biodiversity; and
collected water samples assess carbonate chemistry associated with ocean acidification.
Consistent with prior MHI-RAMP observations: abundance of apex predators (sharks,
jacks) and prevalence of coral disease were low; there were also signs of coral
community deterioration in some populated areas.

Pacific Reef Assessment and Monitoring Program Research Cruise to Wake Island
Completed: Researchers from NOAA’s Coral Reef Ecosystem Division, University of
Hawaii, San Diego State, and the University of Guam completed the 2009 Wake Atoll
Reef Assessment and Monitoring Program (RAMP) cruise on April 1, 2009. The 21-day
cruise began in Pearl Harbor and ended in Apra Harbor, Guam and included a five-day
deployment at Wake. In addition to Rapid Ecological Assessments (REA) at all previous
sites, 17 new fish REA sites were established. Towed-diver surveys encircled the island
with considerable overlap at multiple depths. Researchers deployed Autonomous Reef
Monitoring Structures (ARMS) at four new sites. In addition to successful recovery and
replacement of all existing long-term oceanographic monitoring instrumentation,
researchers deployed nine new oceanographic instruments for an intensive short-term



                                                                                       10
study with the University of Hawaii. Researchers also completed both shallow and deep
hydrographic surveys, and water quality surveys around the island.

Reef Assessment and Monitoring Program Research Cruise to Guam and the
Commonwealth of the Northern Mariana Islands Completed: Scientists from
NOAA’s Pacific Islands Fisheries Science Center’s Coral Reef Ecosystem Division and
partner agencies completed the 4th biennial Mariana Archipelago Reef Assessment and
Monitoring Program cruise surveying the coral reef ecosystems of Guam, Rota, Aguijan,
Tinian, Saipan, Sarigan, Pagan, Asuncion, Supply Reef, Farallon de Pajaros, Maug,
Agrihan, Alamagan, Guguan, Zealandia Bank, and Anatahan. Preliminary analyses of
towed-diver surveys of fish measuring over 50 cm in length revealed lower abundance
than in previous years, and smaller differences in abundance between the uninhabited
northern islands and the populated southern islands. Sharks have continued to exhibit a
declining trend in abundance since surveys began in 2003. Fine-scale biological
assessments of the marine benthos revealed values for coral diversity, percent cover, and
disease comparable to previous assessments. Diversity of algae was lower in the northern
islands, where turf algae replaced macroalgae as the dominant form. Surveys also
revealed unusually high levels of cyanophytes like blue-green algae, particularly along
the western-facing shores of Pagan Island. Although the causative factors of these
conditions are not understood, it is speculated that iron-rich ash originating from recent
volcanic activity may be related to these unusual findings. Alternatively, this increased
cyanophyte cover may simply be part of a previously undocumented natural cycle.

NIST:

Development of a Smart Grid Interoperability Standards Framework: Working
with industry, government, and other stakeholders, NIST is expediting the identification
and development of interoperability standards critical to achieving a reliable and robust
Smart Grid. Accelerating the development of the Smart Grid is among the top priorities
of the Obama Administration. In recognition of this urgency, in March 2009, NIST
identified one of its senior executives to serve as National Coordinator for Smart Grid
Interoperability to provide visible leadership at the national level. In April 2009, NIST
launched a three-phase plan to expedite the development and promote widespread
adoption of Smart Grid interoperability standards. This plan includes further engaging
stakeholders to achieve consensus on Smart Grid standards, launching a formal private-
public partnership to facilitate development of additional standards, and developing a
plan for testing and certification to ensure that Smart Grid equipment and systems
conform to standards for security and interoperability. To augment NIST staff resources,
NIST awarded the Electric Power Research Institute (EPRI) a short-term contract to
engage stakeholders, facilitate public workshops and provide technical assistance in
assessing standards needs and developing a draft interim standards roadmap. NIST used
this report and public input in drafting Release 1.0 of the NIST Smart Grid
Interoperability Standards Framework, released on September 24, 2009. NIST’s
expanded role in smart grid interoperability standards is supported by the Energy
Independence and Security Act of 2007, which charges NIST with "primary
responsibility to coordinate development of a framework that includes protocols and



                                                                                       11
model standards for information management to achieve interoperability of smart grid
devices and systems…"

New Building Code Revisions Adopt NIST Recommendations From World Trade
Center Study: Future buildings—especially tall structures—should be increasingly
resistant to fire, more easily evacuated in emergencies, and safer overall, as a result of 23
major and far-reaching building and fire code changes approved recently by the
International Code Council (ICC) based on recommendations from NIST. The
recommendations were part of NIST’s investigation of the collapses of New York City’s
World Trade Center (WTC) towers on September 11, 2001. The new codes address areas
such as increasing structural resistance to building collapse from fire and other incidents;
requiring a third exit stairway for tall buildings; increasing the width of all stairways by
50 percent in new high-rises; and ensuring effective coverage throughout a building for
emergency responder radio communications. NIST also released its final report on the
September 11, 2001, collapse of the 47-story World Trade Center building 7 (WTC 7) in
New York City.

Nanotechnologists Gain Powerful New Materials Probe: Researchers at NIST and
Johns Hopkins University have constructed a unique tool for exploring the properties of
promising new materials with unprecedented sensitivity and speed—potentially allowing
researchers to identify quickly those most useful for nanotechnology and industrial
applications. This novel instrument, called the Multi-Axis Crystal Spectrometer (MACS),
bombards a sample of material with low-energy neutrons, which then bounce off the
sample’s constituent atoms in specific directions and with specific velocities that reflect
the arrangement of atoms within the material. Analyzing how neutrons scatter from a
sample can tell scientists a great deal about the material’s physical properties, but older
spectrometers are limited to relatively large samples and offer less range in the conditions
under which they can be tested. MACS overcomes these limitations, and its unique
construction has additional advantages. These improvements mean that MACS could
become a favorite tool for scientists who must choose—and choose quickly—what
material to grow next.

World’s First Nanofluidic Device With Complex 3-D Surfaces Built: Researchers at
NIST and Cornell University have capitalized on a process for manufacturing integrated
circuits at the nanometer (billionth of a meter) level to engineer the first-ever nanoscale
fluidic device with complex three-dimensional surfaces. The lilliputian chamber is a
prototype for future tools with custom-designed surfaces to manipulate and measure
different types of nanoparticles in solution. Among the potential applications are
processing nanoscale materials for manufacturing products such as pharmaceuticals,
sorting mixtures of nanoparticles for environmental health and safety investigations, and
isolating and confining individual DNA strands for scientific study.

Viscosity-enhancing Nanomaterials May Double Service Life of Concrete: Engineers
at NIST are patenting a method that is expected to double the service life of concrete. The
key is a nano-sized additive that slows down penetration of chloride and sulfate ions from
road salt, sea water, and soils into the concrete. Infiltrating chloride and sulfate ions cause



                                                                                            12
internal structural damage over time that leads to cracks and weakens the concrete. A
reduction in ion transport translates to reductions in both maintenance costs and the
catastrophic failure of concrete structures. A non-provisional patent application was filed
in September 2008, and the technology is now available for licensing from the U.S.
government.

Memory With a Twist: NIST Develops a Flexible Memristor: NIST researchers have
used inexpensive, readily available materials to create an electronic memory chip that can
be bent or twisted—some 4,000 times in tests—and still keep functioning. Though not
yet ready for the marketplace, the new device is promising not only because of its
potential application in medicine as tiny wearable sensors, but because it also appears to
possess the characteristics of a memristor, a fundamentally new component for electronic
circuits that industry scientists developed in 2008.

NIST’s LIDAR May Offer Peerless Precision in Remote Measurements: By
combining the best of two different distance measurement approaches with a super-
accurate technology called an optical frequency comb, researchers at NIST have built a
laser ranging system that can pinpoint multiple objects with nanometer precision over
distances up to 100 kilometers. The novel LIDAR (“light detection and ranging”) system
could have applications from precision manufacturing lines on Earth to maintaining
networks of satellites in perfect formation, creating a giant space-based platform to
search for new planets.

NIST Issues First Reference Material For Tissue Engineering: NIST issued its first
reference materials to support the new and growing field of tissue engineering for
medicine. The new NIST materials are samples of a typical tissue scaffold material that
have been measured and documented by NIST for three different degrees of porosity.
Three-dimensional tissue scaffolds, under development for some years, are biodegradable
materials that are meant to be implanted in the body to provide a structurally sound
framework for the patient’s cells to implant and grow, in time repairing damaged tissue.
The scaffolds are meant to be absorbed gradually by the body and replaced by normal
tissue. Today, they are used most commonly to help repair damaged bone, but other
applications are being studied.

FY 2008:

NOAA:

Scientific collaboration with industry improves management of key recreational
fishery: In partnership with fishermen in FY 2007 and FY 2008, the Southwest Fisheries
Science Center (SWFSC) has been assessing the habitat and stocks of selected rockfish
species in two marine conservation areas recently created in the Southern California
Bight through the use of a new non-lethal surveying technique. Because marine sport
fishing is a significant industry in Southern California, non-lethal fish surveying
techniques are essential to maintaining rockfishes and other overfished species that are
estimated at or below 25 percent of their pristine levels. The new survey method



                                                                                         13
combines the information obtained from multi-frequency echo sounders mounted on
Commercial Passenger Fishing Vessels (CPFV) with images captured by video and still
cameras deployed from a remotely operated vehicle. The first 60-day survey of the
Southern California Bight began in FY 2007 using the NOAA ship David Starr Jordan
and was completed in FY 2008 using the CPFV Outer Limits.

Genetic stock identification testing used to estimate Chinook salmon distribution:
NOAA scientists from the SWFSC and Northwest Fisheries Science Center (NWFSC)
have launched a wide-ranging collaboration with the commercial salmon fleet and the
states of California, Oregon and Washington to improve data collection on the ocean
distribution and migration patterns of West Coast Chinook salmon stocks. The core
technology of this highly collaborative effort is genetic stock identification (GSI), which
involves determination of the river and stock of origin for salmon by DNA analysis of a
small piece of fin tissue, which can be collected non-lethally. An important aspect of the
collaborative project is the collection of exact location information (GPS coordinates) for
individual fish in the catch, allowing evaluation of the ocean distribution of Chinook
salmon on a stock-specific basis. In the future, the project will be expanded to include the
collection of additional biological information for individual fish, such as scale age
analysis, and oceanographic data that may provide insight into the environmental factors
that influence distribution and abundance of this important fish.

New technology helps tribes detect harmful toxins in shellfish: In the Northwest, the
primary harmful algal bloom toxin affecting shellfish is domoic acid. This toxin is
produced by blooms of microscopic algae known as Pseudo-nitzschia and accumulates in
shellfish, crabs and fish. Tribal and non-tribal communities alike suffer severe economic
losses due to recreational and commercial harvesting closures and lost tourism. To meet
the need for a safe, rapid, cost-effective monitoring tools used by tribes, local
environmental groups and state agencies to monitor biotoxins in shellfish, NMFS
fisheries scientists and collaborators adapted a medical technology to rapidly test for
antibodies for domoic acid (rapid detection bioassay kits). Development began in 2006
with testing occurring in 2007 and 2008. Three scientists from NOAA’s National Marine
Fisheries Service were recently awarded the 2007 NOAA Technology Transfer Award
for their development and commercialization of these rapid, cost- effective kits. The
technology will help coastal tribes quickly and accurately determine contamination levels
in shellfish and expedite harvesting decisions for shellfish beds in remote areas of the
Washington coast. As a result, tribes now have the capability to monitor their subsistence
food source for domoic acid levels within two hours of sampling at a cost of about $10
per sample. Through collaboration with the North Pacific Marine Science Organization
(PICES) and the Government of Japan, this technology will be transferred to the
Philippine Government (Bureau of Fisheries and Aquatic Resources) in January 2009 as a
screening tool to prevent human illness and death. A research paper describing this
method will be published in the journal Harmful Algae in December 2008.

NOAA deploys fourth "smart buoy" on the Captain John Smith Chesapeake
National Historic Trail: NOAA's Chesapeake Bay Office has deployed its fourth "smart
buoy" as part of the Captain John Smith Chesapeake National Historic Trail—the nation's



                                                                                         14
first water-based National Historic Trail. The Chesapeake Bay Interpretive Buoy System
(CBIBS) is an observing system, interpretive trail guide, and educational resource being
developed by NOAA. CBIBS is a system of buoys placed along portions of the Captain
John Smith Chesapeake National Historic Trail and is designed to mark significant points
along the Trail. These state-of-the-art, interactive buoys, provide real-time
meteorological, oceanographic, and water-quality information at different points along
the trail. Following three successful deployments in 2007, the fourth interpretive buoy
was launched in July 2008 near Deltaville, VA., off Stingray Point and a fifth was
deployed at the mouth of the Susquehanna near Havre de Graqce, MD on September 13,
2008. One more buoy will be launched in 2008, on the Elizabeth River off of Norfolk,
VA. The concept for these 'smart buoys' grew out of NOAA's advancements in Earth
observing systems. NOAA is the lead agency for the U.S. Integrated Ocean Observing
System—a cornerstone of the President's U.S. Ocean Action Plan—and these buoys will
be part of the larger Chesapeake Bay Observing System. These measurements, as well as
historical and cultural information about the Bay, can be accessed over the internet or by
phone.

NMFS continues to develop FishWatch, a seafood consumer guide: Seafood
consumers in the U.S. increasingly concerned about the sustainability and quality of
seafood, can now turn to a NOAA Fisheries Service Web site, FishWatch, for the latest
information. The Web site, at http://www.fishwatch.noaa.gov, was launched in August
2007 with consumer information on 30 popular seafood species. After its launch, the site
quickly became one of the most visited sites on the NOAA Fisheries website. In
February 2008, new species and features were added to the site, which now provides
sustainability and health information and recipes on over 75 seafood species. The
President’s Ocean Commission charged NOAA Fisheries Service with informing the
public about the status of the living marine resources managed by the agency, and
FishWatch is an outgrowth of that initiative. FishWatch provides seafood consumers with
timely information about seafood, such as red snapper. The Web site includes
environmental details on the status of fish populations, as well as nutritional facts and
information on seafood and health. FishWatch also provides critical trade information,
such as where seafood comes from and how much money it brings to the economy.

NOAA celebrates the International Polar Year with important Antarctic research:
NOAA's Antarctic Marine Living Resources (AMLR) Program is charged with providing
the scientific information needed to conserve and manage the marine living resources in
the oceans surrounding Antarctic. AMLR utilizes land, sea, and space-based platforms to
gather information on the environment and ecology from the northern end of the
Antarctic Peninsula, and through cooperation with international partners, relates this to
the state of the Southern Ocean. During the 2007/2008 austral summer, AMLR
completed is 22nd consecutive year of research in the Antarctic Peninsular region. The
Program’s mission of tracking the food web relationships between Antarctic krill and its
predators, as well as collecting environmental data under changing sea ice conditions is
critical to managing these resources wisely.




                                                                                       15
In support of the International Polar Year (IPY), which runs from March 2007 to March
2009, the annual field season research was bolstered to increase the breadth and depth of
our understanding of the Antarctic ecosystem. The research included: testing iron in
water samples to test the hypothesis of iron limitation to primary production; expanding
an on-going investigation of surface currents by deploying fifty additional drifter buoys;
initiating research on leopard seal foraging range and ecology studies; conducting the
first comprehensive, ship-based ecosystem-wide study of the South Orkney Islands; and
completing the first fur seal census since 2000, which included the discovery of a
breeding colony in the western area of the South Shetland Islands chain. In addition, an
AMLR researcher participated in an eight-week voyage to characterize the biodiversity,
abundance and distribution of Ross Sea species for the IPY. The data collected will be
used to determine the effects of climate change in the area.

NOAA research provides comprehensive overview of Arctic bowhead whales:
During 2008, scientists at NOAA’s Alaska Fisheries Science Center (AFSC) were
responsible for directing and conducting several large-scale research projects on
endangered bowhead whales in the Arctic. Together these studies are providing an
unprecedented picture of the population status and ecology of this species. Bowhead
whales, which were greatly depleted by 19th century commercial whaling, are recovering
well from exploitation, and are the focus of a well-managed traditional native hunt in
Alaska. Despite this recovery, the bowhead population of the western Arctic is
potentially at risk from climate change and impacts of oil and gas development in the
region. NOAA scientists conducted extensive aerial surveys to count and assess the
distribution of bowhead whales in the Beaufort and Chukchi Seas. NOAA scientists also
worked with colleagues from a variety of scientific institutions and disciplines to carry
out a detailed program of research on the habitat use and requirements, acoustics,
migratory movements, and feeding ecology of this population. The information produced
by these projects will be vital to better understand the challenges faced by bowhead
whales in an Arctic environment that is changing due to climate warming, increasing
industrial activities, and shifting ecosystems. The results from this research will also be
critically important to facilitating future federal actions regarding the management and
conservation of this endangered species.

First dedicated NOAA-NMFS fish survey of the Beaufort Sea. Scientists from the
AFSC conducted NMFS’s first dedicated fish survey of the Beaufort Sea during Summer
2008 (July 30 to August 30, 2008). The goals of the survey are to provide a baseline for
analysis of the impacts of future oil and gas development in the Beaufort Sea and for the
study of climate change. The project will also provide information for the Arctic
Fisheries Management Plan currently under development by the North Pacific Fishery
Management Council. The species composition, distribution and abundance of benthic
fish and invertebrates were assessed with standard bottom trawl methods. Pelagic fish
were surveyed with fisheries acoustics and mid-water nets. In addition, oceanographic
data and zooplankton samples were collected to assess water column properties and the
prey available to fish. Scientists also recorded marine mammal observations and
conducted transect surveys for seabird distribution and abundance. A total of 26 bottom




                                                                                        16
trawls were conducted and seven acoustic transects were surveyed, each approximately
30 nautical miles long

Coral Reef Ecosystem Monitoring Report for American Samoa: 2002–2006: As the
most comprehensive integrated ecosystem assessment of the coral reefs of American
Samoa to date, the Coral Reef Ecosystem Monitoring Report for American Samoa,
released in July 2008, provides detailed spatial and temporal analyses for each of the five
island/atoll groups within American Samoa (Tutuila and Aunu`u Islands, Ofu and
Olosega Islands, Ta`u Island, Swains Island, and Rose Atoll). The research was compiled
from interdisciplinary surveys conducted during three American Samoa Reef Assessment
and Monitoring Program (ASRAMP) research cruises in 2002, 2004, and 2006, led by the
Coral Reef Ecosystem Division of the Pacific Islands Fisheries Science Center (PIFSC)
in close collaboration with key partners from other NOAA offices, federal, state, and
territorial agencies, academia, and non governmental organizations. Since these
integrated ecosystem observations are consistent with and comparable to other Pacific
RAMP observations in the Hawaiian Archipelago, the Territory of Guam, the
Commonwealth of the Northern Mariana Islands, and the Pacific Remote Island Areas,
they provide an unprecedented opportunity to better understand the condition and health
of the coral reefs of American Samoa relative to other reefs across the Pacific.

NIST:

Standards set for energy-conserving LED lighting: NIST scientists, in cooperation
with national standards organizations, have taken the lead in developing the first two
standards for solid-state lighting in the United States. This new generation lighting
technology uses light-emitting diodes (LEDs) instead of incandescent filaments or
fluorescent tubes to produce illumination that cuts energy consumption significantly.
These standards detail the color specifications of LED lamps and LED light fixtures, and
the test methods that manufacturers should use when testing these solid-state lighting
products for total light output, energy consumption and chromaticity, or color quality.
Solid-state lighting is expected to significantly reduce the amount of energy needed for
general lighting, including residential, commercial and street lighting. The Department of
Energy predicts that phasing in solid-state lighting over the next 20 years could save
more than $280 billion in 2007 dollars.

Improving neutron detection: Researchers at NIST and the University of Maryland
have developed a new optical method that can detect individual neutrons and record them
over a range of intensities at least 100 times greater than existing detectors. The new
detector promises to improve existing neutron measurements and enable tests of new
phenomena beyond the Standard Model, the basic framework of particle physics. The
prototype laboratory device is based on the emission of light, known as Lyman alpha
light, from hydrogen atoms produced when neutrons are absorbed by helium-3 atoms
(3He). Although it is the brightest light emitted by the sun and is one of the most
abundant forms of light in the universe, Lyman alpha is invisible to the eye because it lies
in the far ultraviolet region of the optical spectrum. This light is recorded by the new




                                                                                         17
device, known as the Lyman alpha neutron detector (LAND). The LAND won an R&D
100 award from Research and Development Magazine in July 2008.

Bioimaging in living color: NIST and the National Institutes of Health researchers
reported in June 2008 that customized microscopic magnets might one day be injected
into the body to add color to magnetic resonance imaging (MRI) while enhancing
sensitivity and the amount of information provided by images. Unlike the chemical
solutions now used as image-enhancing contrast agents in MRI, the NIST/NIH
micromagnets rely on a precisely tunable feature—their physical shape—to adjust the
radio frequency (RF) signals used to create images. The RF signals then can be converted
into a rainbow of optical colors by computer. Sets of different magnets designed to
appear as different colors could, for example, be coated to attach to different cell types,
such as cancerous versus normal. The new micromagnets also could act as “smart tags,”
identifying particular cells, tissues or physiological conditions for medical research or
diagnostic purposes. The magnets could also make medical diagnostic images as
information-rich as the optical images of tissue samples now common in biotechnology,
which already benefits from a variety of colored markers such as fluorescent proteins and
tunable quantum dots.

Improving subterranean communication: As part of a project to improve wireless
communications for emergency responders, NIST researchers have confirmed that
underground tunnels—generally a difficult setting for radios—can have a frequency
“sweet spot” at which signals may travel several times farther than at other frequencies.
The finding, which uses extensive new data to confirm models developed in the 1970s,
may point to strategies for enhancing rescue communications in subways and mines. The
optimal frequency depends on the dimensions of the tunnel. The NIST data will support
the development of open standards for design of optimal systems, especially for
emergency responders. NIST researchers note that the results may help design wireless
systems that improve control of, for example, search and rescue robots in subways.

NIST mini-sensor may ‘change the way we live’: A tiny sensor that can detect
magnetic field changes as small as 70 femtoteslas—equivalent to the brain waves of a
person daydreaming—has been demonstrated at NIST. The sensor could be battery-
operated and could reduce the costs of non-invasive biomagnetic measurements such as
fetal heart monitoring. The device also may have applications such as homeland security
screening for explosives. The prototype device is almost 1,000 times more sensitive than
NIST’s original chip-scale magnetometer demonstrated in 2004. The new sensor is
already powerful enough for fetal heart monitoring; with further work, the sensitivity can
likely be improved to a level in the 10 femtotesla range, sufficient for additional
applications such as measuring brain activity. Potential NIST collaborators are interested
in making a portable MEG helmet that could be worn by epileptics to record brain
activity before and during seizures. The devices would be much smaller and lighter than
the Superconducting Quantum Interference Devices (SQUID) helmets currently used for
such studies. The NIST sensor also may have applications in MRI or in airport screening
for explosives based on detection of nuclear quadrupole resonance in nitrogen
compounds.



                                                                                        18
Section C: Investment in Human Capital (SFFAS No. 8, par 100)

1. Provide a description of the major education and training programs considered
Federal investments in human capital. (SFFAS No. 8, par. 94)

Answer:
FY 2009 and FY 2008:

Human capital investments are expenses, included in the Department’s Net Cost of
Operations, for education and training programs that are intended to increase or maintain
national economic productive capacity and produce outputs and outcomes that provide
evidence of the constant or increasing national productive capacity. These investments
exclude education and training expenses for federal civilian and military personnel.
Based on a review of the Department’s programs, the most significant dollar investments
in human capital are by NOAA.

NOAA:

National Sea Grant College Program: Sea Grant is a nationwide network, administered
through NOAA, of 32 university-based programs that work with coastal communities.
With the adoption in 1966 of the National Sea Grant College Act, Congress established
an academic/industry/government partnership that would enhance the nation’s education,
economy, and environment into the 21st century. The program supports activities
designed to increase public awareness of coastal, ocean, and Great Lakes issues, to
provide information to improve management decisions in coastal, ocean, and Great Lakes
policy, and to train graduate students in marine and Great Lakes science. The Knauss
Fellowship Program offers qualified masters and doctoral students the opportunity to
spend a year working on marine and Great Lakes policy issues with the Executive and
Legislative branches of the federal government. There is also a Graduate Fellowship
Program for Ph.D. candidates in the specialized areas of population dynamics and marine
resource economics. Participants in this program can receive up to three years of funding.

National Estuarine Research Reserve Program: This program supports activities
designed to increase public awareness of estuary issues, provide information to improve
management decisions in estuarine areas, and train graduate students in estuarine science.
The National Estuarine Research Reserve System’s Graduate Research Fellowship (GRF)
Program offers qualified masters and doctoral students the opportunity to address
scientific questions of local, regional, and national significance. The result is high-quality
research focused on improving coastal management issues. All GRF projects must be
conducted in a National Estuarine Research Reserve and enhance the scientific
understanding of the reserve’s ecosystem. As of September 30, 2009, 53 Graduate
Research Fellowships have been awarded.

Educational Partnership Program: The NOAA Educational Partnership Program
(EPP) with Minority Serving Institutions (MSI) provides financial assistance through
competitive processes to minority serving institutions that support research and training



                                                                                           19
of students in NOAA-related sciences. The program’s goal is to increase the number of
educated, trained, and graduated students from underrepresented communities in science
and technology directly related to NOAA’s mission. The EPP/MSI also seeks to increase
collaborative research efforts between NOAA scientists and researchers at minority
serving academic institutions. Financial assistance is provided through four competitive
program components: the Cooperative Science Centers, the Environmental
Entrepreneurship Program, the Graduate Sciences Program, and the Undergraduate
Scholars Program.

NOAA provides funding to eligible MSIs on a competitive basis to educate, train, and
graduate students in NOAA sciences, particularly atmospheric, oceanic, environmental,
living marine resources, remote sensing, and scientific environmental technology. NOAA
EPP Cooperative Science Centers’ goals are to:

   x   Educate, train, and graduate students, particularly from underrepresented
       communities, in NOAA mission sciences;
   x   Develop expertise in a NOAA scientific area;
           o Strengthen and build capacity in a NOAA scientific and management area
           o Build research experience in a NOAA scientific and management area
   x   Increase graduation rates of students from underrepresented communities in
       NOAA mission sciences;
   x    Impact NOAA workforce statistics by increasing representation from
       underrepresented communities in NOAA mission sciences; and
   x   Leverage NOAA funds to build the education and research capacity at MSIs.

The EPP/MSI Environmental Entrepreneurship Program (EEP) provides funding to
eligible minority serving institutions on a competitive basis to engage students to pursue
advanced academic study and entrepreneurship opportunities in the NOAA-related
sciences. NOAA’s EEP supports student training and experiential learning opportunities
for the purpose of stimulating job creation and business development, and revitalizing
local communities. EEP’s objective is to increase the number of students at MSIs
proficient in environmental business enterprises.

The Graduate Sciences Program (GSP) is aimed primarily at increasing opportunities for
students in NOAA-related fields to pursue research and educational training in
atmospheric, environmental, remote sensing, and oceanic sciences at MSIs when
possible. The GSP offers between two years (master’s candidates) to four years (doctoral
students) of NOAA-related research and training opportunities. The GSP provides
college graduates entry-level employment and hands-on research and work experience at
NOAA. Nine students were selected to participate in the GSP in FY 2009. The program
plans to add five students in FY 2010.

The Undergraduate Scholarship Program is designed to increase the number of students
who undertake course work and graduate with degrees in the targeted areas integral to
NOAA’s mission. Appointments are for two years, and are made to students who have
recently declared or are about to declare a major in atmospheric, oceanic, or


                                                                                         20
environmental science. The students participate in research, training, and development
activities at NOAA offices and facilities during two summer internships. 11 students
started the program in FY 2009.

Ernest F. Hollings Undergraduate Scholarship Program: This program was
established in 2005 to (1) increase undergraduate training in oceanic and atmospheric
science, research, technology, and education, and foster multidisciplinary training
opportunities; (2) increase public understanding and support for stewardship of the ocean
and atmosphere and improve environmental literacy; (3) recruit and prepare students for
public service careers with NOAA and other agencies at the federal, state, and local
levels of government; and (4) recruit and prepare students for careers as teachers and
educators in oceanic and atmospheric science and to improve scientific and
environmental education in the U.S. There were 112 students that started the program in
2008. 122 students started the program in FY 2009.

Southeast Fisheries Science Center’s Recruiting Training Research Program: This is
a joint program between NMFS and Virginia Tech to: (1) recruit top undergraduates into
the field of fisheries population dynamics and careers with NMFS; (2) train graduate
students; and (3) conduct population dynamics and stock assessment research in support
of the NMFS mission. The program also offers graduate courses and workshops in
computer programming, simulation modeling, and fish population dynamics. In 2009, 15
undergraduate students from across the country participated in a week-long
undergraduate workshop, eight students participated in a six-week summer program, and
three M.S. students were supported by the program at Virginia Tech. In 2010, the
program is expected to operate at a similar scale.

Section D: Research and Development: Investment in Basic Research (SFFAS No. 8,
par. 99 & 100)

1. Provide a description of the major programs of Federal investments in basic
research. (SFFAS No. 8, par. 100)

Answer:
FY 2009 and FY 2008:

NIST:

NIST Laboratories have been the stewards of the nation’s measurement infrastructure
since their inception in 1901 as the National Bureau of Standards. NIST Laboratories
foster scientific and technological leadership by helping the U.S. to drive and take
advantage of the increased pace of technological change, fostering more efficient
transactions in the domestic and global marketplace, and addressing other critical needs
assigned to NIST by the Administration and Congress. In support of the American
Competitiveness Initiative, NIST develops and disseminates measurement techniques,
reference data, test methods, standards, and other infrastructural technologies and
services required by U.S. industry, government, and academia to compete in the 21st



                                                                                         21
century. NIST laboratories promote innovation, facilitate trade, and ensure public safety
and security by strengthening the nation’s measurement and standards infrastructure.

The American Recovery and Reinvestment Act of 2009 included $250 million in funding
for NIST laboratory research, measurements, and other services supporting economic
growth and U.S. innovation through funding of such items as competitive grants, research
fellowships, advanced measurement equipment and supplies, standards-related research
that supports the security and interoperability of electronic medical records to reduce
health care costs and improve the quality of care, and development of a comprehensive
framework for a nationwide, fully interoperable smart grid for the U.S. electric power
system. This funding will result in additional R&D investments for the NIST
Laboratories Program.

2. Provide a description of any major new discoveries made during the year. (SFFAS
No. 8, par 99)

Answer:
FY 2009:

NIST:

JILA/NIST Scientists Get a Grip on Colliding Fermions to Enhance Atomic Clock
accuracy: NIST physicists have measured and controlled seemingly forbidden collisions
between neutral strontium atoms—a class of antisocial atoms known as fermions, which
are not supposed to collide when in identical energy states. The advance makes possible a
significant boost in the accuracy of atomic clocks based on hundreds or thousands of
neutral atoms. Beyond atomic clocks, the high precision of JILA’s experimental setup is
expected to be useful in other applications requiring exquisite control of atoms, such as
quantum computing—potentially ultra-powerful computers based on quantum physics—
and simulations to improve understanding of other quantum phenomena such as
superconductivity.

Neutron Researchers Discover Widely Sought Property in Magnetic Semiconductor:
Researchers from NIST, Korea University, and the University of Notre Dame have
confirmed theorists’ hopes that thin magnetic layers of semiconductor material could
exhibit a prized property known as antiferromagnetic coupling—in which one layer
spontaneously aligns its magnetic pole in the opposite direction as the next magnetic
layer. This discovery raises hopes for even smaller and faster gadgets that could result
from magnetic data storage in a semiconductor material, which could then quickly
process the data through built-in logic circuits controlled by electric fields. The team
conducted their studies at the NIST Center for Neutron Research using a technique
known as polarized neutron reflectometry.

Long-sought Protein Structure May Help Reveal How ‘Gene Switch’ Works: The
bacterium behind one of mankind’s deadliest scourges, tuberculosis, is helping
researchers at NIST and Brookhaven National Laboratory move closer to answering the



                                                                                        22
decades-old question of what controls the switching on and off of genes that carry out all
of life’s functions. The team reported that it had defined—for the first time—the structure
of a “metabolic switch” in its “off” state. The switch, which is found inside most types of
bacteria, is a protein that in the “on” state activates the genes that help a microbe survive
in a human host. The researchers hope that once the switching mechanism is understood,
the data can be used to develop new methods for preventing tuberculosis and other
pathogenic bacterial diseases. Additionally, researchers believe that learning how this
specific protein switch works may provide insight into how genes in general are
regulated.

For Refrigeration Problems, a Magnetically Attractive Solution: An exotic metal
alloy discovered by an international collaboration working at the NIST Center for
Neutron Research may prove to be the long-sought material that permits magnetic
cooling in home refrigeration instead of commonly used gas-compression systems.
Magnetic cooling, though used for decades in science and industry, has yet to find
application in the home because of technical and environmental hurdles—but the
collaboration may have overcome them. The alloy, a magnetocaloric material that
changes temperature when exposed to a magnetic field, is a mixture of manganese, iron,
phosphorus and germanium. Though not yet ready for the marketplace, it is the first
magnetocaloric that functions at near room temperature to contain neither gadolinium nor
arsenic, rendering it both safer and cheaper than other magnetocalorics. It also has such
strong properties that a system based on it could rival gas compression in efficiency.

NIST Study Offers First Detailed Look at the Progress of a Wildland-Urban
Interface Fire: To better understand these Wildland-Urban Interface (WUI) fires and
how best to prevent or fight them, researchers at NIST have issued an in-depth study on
fire behavior and defensive actions taken in a community during such a fire. The NIST
report is the first in a series of three publications to understand WUI fire behavior. The
second publication, in progress, will examine the role of construction and landscaping on
the probability of a structure’s survival. A third report will describe a study that uses the
data to build a computer-generated virtual community to test the fire behavior predicted
by different fire models and compare the results to the observed fire behavior and
structural response.

Cold Atoms Could Replace Hot Gallium in Focused Ion Beams: Scientists at NIST
have developed a radical new method of focusing a stream of ions into a point as small as
one nanometer (one billionth of a meter). Because of the versatility of their approach—it
can be used with a wide range of ions tailored to the task at hand—it is expected to have
broad application in nanotechnology both for carving smaller features on semiconductors
than now are possible and for nondestructive imaging of nanoscale structures with finer
resolution than currently possible with electron microscopes.

Researchers Demonstrate Novel ‘Quantum Data Buffering’ Scheme: Researchers
from NIST and the University of Maryland study how to cache sizable amounts
information in a “quantum buffer” without disturbing the fragile entanglement of
quantum states at the heart of the strange world of quantum computing. Such a buffer



                                                                                           23
could be used to control the data flow inside a yet-to-be-built quantum computer that
theoretically could solve problems unreachable by the best conventional computers.
While such “delayed entanglement” has been demonstrated before for individual photons,
it has never been accomplished in information-rich quantum images.

JILA Scientists Create First Dense Gas of Ultracold ‘Polar’ Molecules: Scientists at
JILA, a joint institute of the NIST and the University of Colorado at Boulder, NIST and
Temple University in Philadelphia have produced the first high-density gas of ultracold
“polar” molecules—molecules with a positive electric charge at one end and a negative
charge at the other—that are both stable and capable of strong interactions. Practical
benefits could include new chemical reactions and processes for making designer
materials and improving energy production, new methods for quantum computing using
charged molecules as quantum bits, new tools for precision measurement such as optical
molecular clocks or molecular systems that enable searches for new theories of physics
beyond the Standard Model, and improved understanding of condensed matter
phenomena such as colossal magnetoresistance and superconductivity.

FY 2008:

NOAA:

Migratory Behavior of Green Sturgeon Revealed by Acoustic Tagging: NMFS
scientists have published a paper describing extensive migrations of green sturgeon
through the coastal waters between California and southeast Alaska. Green sturgeon
were tagged with acoustic pingers and their movements monitored by arrays of
hydrophones along the west coast of North America. The researchers found that many
green sturgeon undertake extensive seasonal migrations, spending summers in southern
areas and winters off British Columbia. This pattern of movement is quite unusual among
migratory animals, which typically overwinter at lower latitudes and spend summers at
higher latitudes. The results indicate that southern DPS green sturgeon, which are
protected under the Endangered Species Act, may be impacted by activities far from their
spawning river, such as Canadian bottom trawl fisheries. Additionally, the results of the
study have already found significant application in the proposed designation of critical
habitat for the southern Distinct Population Segment of green sturgeon, a federally-listed
threatened species.

Persistent Man-made Chemical Pollutants Found in Deep-Sea Octopods and Squids:
New evidence that chemical contaminants are finding their way into the deep-sea food
web has been found in cephalopods (a class of organisms that includes octopods, squids,
cuttlefishes and nautiluses). Cephalopods are the primary food for 28 species of
odontocetes, the sub-order of cetaceans that have teeth and include beaked, sperm, killer
and beluga whales and narwhals as well as dolphins and porpoises.

NOAA researchers in collaboration with other academic researchers, collected nine
species of cephalopods from depths between 1,000 and 2,000 meters (about 3,300 to
6,600 feet) in 2003 in the western North Atlantic Ocean using a large mid-water



                                                                                       24
trawl. Twenty-two specimens were analyzed for a variety of contaminants. Among the
chemicals detected were tributyltin (TBT), polychlorinated biphenyls (PCBs), brominated
diphenyl ethers (BDEs), and dichlorodiphenyl-trichloroethane (DDT), a pesticide banned
in the U.S. in the 1970s but still used on a limited basis in some parts of the world to
control diseases like malaria. They are known as persistent organic pollutants (POPs)
because they don't degrade and they persist in the environment for a very long time.

Recent studies have reported the accumulation of POPs in the blubber and tissues of
whales and other predatory marine mammals as well as in some deep-sea fish. Other
investigators had speculated that the pollutants in marine mammals had resulted from
feeding on contaminated squids. However, almost no information existed prior to this
study about POPs in deep-sea cephalopods.

Ancient Deep Sea Coral Reefs Off Southeastern U.S. Serve as Underwater “Islands”
in the Gulf Stream, Home to Many New Species of Animals: Largely unexplored
deep-sea coral reefs, some perhaps hundreds of thousands of years old, off the coast of
the southeastern U.S. are not only larger than expected, but also home to commercially
valuable fish populations and many newly discovered species. Results from a series of
NOAA-funded expeditions to document these previously unstudied and diverse habitats
and their associated marine life have revealed some surprising results. The coral habitats
explored during the expeditions appear to be more extensive than previously believed and
are important habitat for several species of commercially and recreationally important
fish as well as sponges, crabs, brittle stars and other creatures. The corals also contain
historical data about changing ocean climate and productivity, and are hotspots of
biodiversity. Many organisms live in and around these deep coral habitats, including
species new to science and species with pharmaceutical potential.

Additional background information and images from these expeditions can be found on
the NOAA Ocean Explorer web site
(http://oceanexplorer.noaa.gov/explorations/explorations.html) under the “Islands in the
Stream" and the “Life on the Edge” expeditions.

NOAA Researchers Find Aquaculture Promising Method to Grow Black Sea Bass:
Black sea bass is an important recreational and commercial fishery along the Atlantic
coast of the US, but landings have decreased in recent decades as the demand for this fish
as seafood and in sushi markets has risen. In an attempt to meet that demand, NOAA
researchers recently evaluated the potential of black sea bass for commercial aquaculture
and found promising results.

After two separate culture trials over a period of four years, NOAA fisheries biologists
found that sea bass can be grown from larvae to adults in recirculating aquaculture
systems (RAS), eating a diet of commercial pellet feeds. Black sea bass grow slowly in
the wild. According to the Massachusetts Division of Marine Fisheries, the largest black
sea bass caught by an angler in Massachusetts's waters weighed eight pounds, and off
Florida the record is just over five pounds. However, the average catch size is a 12-inch
fish generally weighing about one pound. Black sea bass can be grown rapidly in RAS



                                                                                       25
where they can attain weights in under two years that take wild stocks three years or more
to achieve.

NOAA Scientists Discover New Kelp Species Found in the Aleutian Archipelago.
Aureophycus alueticus, or Golden V Kelp was previously unknown to scientists, was
discovered by a researcher from Auke Bay Laboratories, and published in the August
issue of the Journal of Phycology. Genetic analyses were significant indicating this kelp
is not only a new species and genus, but does not belong to any recognized family.

Journal Publication "Ocean's Least Productive Waters Are Expanding": Through
the use of a SeaWiFS, a sensor aboard NASA’s orbiting SeaStar spacecraft, PIFSC
researchers have discovered that the areas of lowest surface chlorophyll water in the
North and South Pacific, and North and South Atlantic have been expanding at about 2
percent per year. This change in ocean biology, linked to the warming of sea surface
waters, may negatively affect the populations of many fish species trying to survive in
these desert-like environments. The warming increases stratification of the ocean waters,
preventing deep ocean nutrients from rising to the surface and resulting in a decrease in
plant life. These barren areas are found in roughly 20 percent of the world’s oceans and
are within subtropical gyres - the swirling expanses of water on either side of the equator.
The low-productivity zones, likened to deserts, now cover an estimated 51 million square
kilometers in these two oceans. The least productive area of the Indian Ocean shows the
same trend, but there has been too much variability for it to be statistically significant.
This research was published in the journal Geophysical Research Letters in February
2008.

NIST:

Physicists produce quantum-entangled images: Using a convenient and flexible
method for creating twin light beams, researchers from NIST and the University of
Maryland have produced “quantum images,” pairs of information-rich visual patterns
whose features are “entangled,” or inextricably linked by the laws of quantum physics. In
addition to promising better detection of faint objects and improved amplification and
positioning of light beams, the researchers’ technique for producing quantum images—
unprecedented in its simplicity, versatility, and efficiency—may someday be useful for
storing patterns of data in quantum computers and transmitting large amounts of highly
secure encrypted information. A next goal for the researchers is to produce quantum
images with slowed-down light; such slowed images could be used in information storage
and processing as well as communications applications.

New iron-based superconductors reinforce link to magnetism: NIST researchers have
learned that a new class of iron-based superconductors discovered earlier in 2008 shares
similar unusual magnetic properties with previously known high-temperature
superconductors based on copper-oxide materials. The importance of magnetism to high-
temperature superconductors (HTS) is remarkable because normally magnetism strongly
interferes with conventional, low-temperature superconductors. According to the
research, magnetism now may prove to be an integral element of HTS materials. These



                                                                                         26
superconductors may one day enable energy and environmental gains by significantly
improving the efficiency of electricity storage and transmission over long distances.

Unlocking secrets of early-stage Alzheimer’s: NIST researchers and three collaborating
institutions are using a new laboratory model of the membrane surrounding neurons in
the brain to study how a protein long suspected of a role in early-stage Alzheimer’s
disease actually impairs a neuron’s structure and function. Medical experts have
hypothesized for years that small polypeptides called amyloid beta peptides somehow
create a “leaky” membrane that disrupts this balanced back-and-forth switching of the
electrical potential and, in turn, normal impulse transmission. Alzheimer’s disease—the
progressive brain disorder that is the nation’s sixth leading cause of death—is believed to
start with such breakdowns. Researchers at NIST have developed a laboratory model that
recreates a simplified version of the nerve cell membrane, allowing the study of
Alzheimer’s disease mechanisms at the molecular level.

Testing a potential hydrogen storage compound: Researchers at NIST’s Center for
Neutron Research (NCNR), in collaboration with scientists at the University of Maryland
and the California Institute of Technology, have demonstrated that a novel class of
materials called metal-organic frameworks could enable a practical hydrogen fuel tank.
One of several classes of materials that can bind and release hydrogen under the right
conditions, MOFs could be engineered so that refueling is as easy as pumping gas at a
service station is today, and don’t require the high temperatures (110 to 500 C) some
other materials need to release hydrogen. The researchers used neutron scattering and gas
adsorption techniques to determine that at 77 K (-196 C), MOF-74 can absorb more
hydrogen than any unpressurized framework structure studied to date—packing the
molecules in more densely than they would be if frozen in a block.

NIST ‘quantum logic clock’ rivals mercury ion as world’s most accurate: An atomic
clock that uses an aluminum atom to apply the logic of computers to the peculiarities of
the quantum world now rivals the world’s most accurate clock, based on a single mercury
atom. Both clocks are at least 10 times more accurate than the current U.S. time standard.
The measurements were made in a yearlong comparison of the two next-generation
clocks, both designed and built at NIST. The clocks were compared with record
precision, allowing scientists to measure the relative frequencies of the two clocks to 17
digits—the most accurate measurement of this type ever made. The comparison produced
the most precise results yet in the worldwide quest to determine whether some of the
fundamental constants that describe the universe are changing slightly over time, an
important research question that may alter basic models of the cosmos. The aluminum
and mercury clocks are both based on natural atomic vibrations and would neither gain
nor lose one second in over 1 billion years—if they could run for such a long time—
compared to about 80 million years for NIST-F1, the U.S. time standard based on cesium
atoms.

Improving neutron detection: Researchers at NIST and the University of Maryland
have developed a new optical method that can detect individual neutrons and record them
over a range of intensities at least 100 times greater than existing detectors. The new



                                                                                        27
detector promises to improve existing neutron measurements and enable tests of new
phenomena beyond the Standard Model, the basic framework of particle physics. The
prototype laboratory device is based on the emission of light, known as Lyman alpha
light, from hydrogen atoms produced when neutrons are absorbed by helium-3 atoms
(3He). Although it is the brightest light emitted by the sun and is one of the most
abundant forms of light in the universe, Lyman alpha is invisible to the eye because it lies
in the far ultraviolet region of the optical spectrum. This light is recorded by the new
device, known as the Lyman alpha neutron detector (LAND). The LAND won an R&D
100 award from Research and Development Magazine in July 2008.

Section E: Research and Development: Investment in Applied Research (SFFAS No.
8, par 100)

1. Provide a description of the major programs of Federal investments in applied
research. (SFFAS No. 8, par. 100)

Answer:
FY 2009 and FY 2008:

NOAA:

NOAA conducts a substantial program of environmental R&D in support of its mission,
much of which is performed to improve the U.S.’s understanding of and ability to predict
environmental phenomena. The scope of research includes:

x   Improving predictions and warnings associated with the weather, on time scales
    ranging from minutes to weeks;
x   Improving predictions of climate, on time scales ranging from months to centuries;
    and
x   Improving understanding of natural relationships to better predict and manage
    renewable marine resources and coastal and ocean ecosystems.

The NOAA also conducts research that is intended to provide a solid scientific basis for
environmental policy-making in government. Examples of this research include
determining the stratospheric ozone-depleting potential of proposed substitutes for
chlorofluorocarbons (CFCs), and identifying the causes of the episodic high rural ozone
levels that significantly damage crops and forests.

The NOAA conducts most R&D in-house; however, contractors to NOAA undertake
most systems R&D. External R&D work supported by NOAA includes that undertaken
through federal-academic partnerships such as the National Sea Grant College Program,
the Cooperative Institutes of the Environmental Research Laboratories, the Climate and
Global Change Program, and the Coastal Ocean Program.

Here is a brief description of the major R&D programs of NOAA:




                                                                                         28
Environmental and Climate: The Office of Oceanic and Atmospheric Research is
NOAA’s primary research and development office. This office conducts research in three
major areas: climate research, weather and air quality research, and ocean, coastal, and
Great Lakes research. The NOAA’s research laboratories, Office of Global Programs,
and research partners conduct a wide range of research into complex climate systems,
including the exploration and investigation of ocean habitats and resources. The NOAA’s
research organizations conduct applied research on the upper and lower atmosphere as
well as the space environment.

Fisheries: The NOAA’s NMFS is responsible for the management and stewardship of
living marine resources and their habitat within the Nation’s Exclusive Economic Zone.
The NMFS manages these resources through science-based conservation and
management, and the protection and restoration of healthy ecosystems to ensure their
continuation as functioning components of ecosystems, while also affording economic
opportunities and enhancing the quality of life for the American public. Fishery stocks
and protected species are surveyed, catch data are collected, and research is conducted to
better understand the variables affecting the abundance and variety of marine fishes and
protected species. Protection of endangered species, restoration of coastal and estuarine
fishery habitats, and enforcement of fishery regulations are primary bureau activities.
The research and management of living marine resources is conducted in partnership with
states, universities, other countries, and international organizations.

Marine Operations and Maintenance and Aircraft Services: These expenditures
support NOAA’s programs requiring operating days and flight hours to collect data at sea
and in the air. The NOAA’s Marine and Aviation Operations manage a wide variety of
specialized aircraft and ships to complete NOAA’s environmental and scientific
missions. The aircraft collect the environmental and geographic data essential to NOAA
hurricane and other weather and atmospheric research, conduct aerial surveys for
hydrologic research to help predict flooding potential from snowmelt, and provide
support to NOAA’s fishery research and marine mammal assessment programs. The
NOAA’s ship fleet provides oceanographic and atmospheric research and fisheries
research vessels to support NOAA’s strategic plan elements and mission.

Weather Service: The National Weather Service conducts applied research and
development, building upon research conducted by NOAA laboratories and the academic
community. Applied meteorological and hydrological research is integral to providing
more timely and accurate weather, water, and climate services to the public.

Other Programs: As a national lead for coastal stewardship, National Ocean Service
promotes a wide range of research activities to create the strong science foundation
required to advance the sustainable use of precious coastal systems. Understanding of the
coastal environment is enhanced through coastal ocean activities that support science and
resource management programs. The National Environmental Satellite Data and
Information Service, through its Office of Research and Applications, conducts
atmospheric, climatological, and oceanic research into the use of satellite data for




                                                                                       29
monitoring environmental characteristics and their change. It also provides guidance for
the development and evolution of spacecraft and sensors to meet future needs.

NIST:

NIST Laboratories have been the stewards of the nation’s measurement infrastructure
since their inception in 1901 as the National Bureau of Standards. NIST Laboratories
foster scientific and technological leadership by helping the U.S. to drive and take
advantage of the increased pace of technological change, fostering more efficient
transactions in the domestic and global marketplace, and addressing other critical needs
assigned to NIST by the Administration and Congress. In support of the American
Competitiveness Initiative, NIST develops and disseminates measurement techniques,
reference data, test methods, standards, and other infrastructural technologies and
services required by U.S. industry, government, and academia to compete in the 21st
century. NIST laboratories promote innovation, facilitate trade, and ensure public safety
and security by strengthening the nation’s measurement and standards infrastructure.

The American Recovery and Reinvestment Act of 2009 included $250 million in funding
for NIST laboratory research, measurements, and other services supporting economic
growth and U.S. innovation through funding of such items as competitive grants, research
fellowships, advanced measurement equipment and supplies, standards-related research
that supports the security and interoperability of electronic medical records to reduce
health care costs and improve the quality of care, and development of a comprehensive
framework for a nationwide, fully interoperable smart grid for the U.S. electric power
system. This funding will result in additional R&D investments for the NIST
Laboratories Program.

Advanced Technology Program (ATP): ATP is a cost-shared funding program for
businesses that was intended to develop new technologies for commercial use. ATP was
abolished by the America COMPETES Act, which was signed into law by the President
on August 9, 2007. However, this statute allows for continued support for previously
awarded ATP projects and the 56 new FY 2007 awards. Special attention is being given
to documenting the results of funded research to ensure maximum private sector use is
made of this investment in the years ahead.

2. Provide a description of any major new applications developed during the year.
(SFFAS No. 8, par. 99)

Answer:
FY 2009:

NOAA:

Journal Publication "The Marine Ecosystem of the Pribilof Domain, Southeastern
Bering Sea": NOAA and other researchers have discovered a new and unique
continental shelf domain, the Pribilof Domain. Elevated nutrient supply, summer post-
bloom primary production, and advection of large zooplankton differentiate the Pribilof


                                                                                        30
Domain from the rest of the Middle Shelf Domain. These differences help to sustain
populations of fish in the region, as well as marine mammals and seabirds breeding on
the Pribilof Islands. This publication, a special issue of Deep-Sea Research II: Topical
Studies in Oceanography, confirms regional enhanced productivity at the base of the
marine food chain; how it is used by commercial and protected species; and how it is
affected by climate change.

This special issue was published as Volume 55, Issues 16-17 (August 2008), but was not
available until much later. The volume includes 18 original science articles, two
introductory articles, and one synthesis article. The synthesis article (Hunt et al., 2008)
provides an ecosystem approach to viewing changes in living marine resources and trends
in other upper trophic level components. The issue has two important conclusions: the
area around the Pribilof Islands operate semi-independently from the rest of the shelf, and
the warm period of the early 2000s had a significant and potentially negative effect on the
southeastern portion of the shelf where many of our living marine resources from the
eastern Bering Sea are harvested. Nine AFSC, five Pacific Marine Environmental
Laboratory (PMEL), and four authors from the Joint Institute for the Study of the
Atmosphere and Ocean contributed to the special issue.

NMFS Scientists Continue Programs to Transfer Best Practices in Bycatch
Reduction and Sea Turtle Careful Release Protocols Around the World: SEFSC’s
Pascagoula Laboratory gear specialists lead turtle excluder device (TED) and bycatch
mitigation training and technology transfer activities all over the world. During FY 2009,
SEFSC’s teams visited Panama, El Salvador, French Guiana, Ecuador, Colombia and
Costa Rica providing TEDs training to fishers and marine enforcement personnel.
Additionally, the teams conducted training in the use of modified gillnets to reduce sea
turtle captures in Trinidad.

SEFSC has also developed and recently updated careful release protocols for sea turtle
release with minimal injury (NOAA Technical Memorandum NMFS-SEFSC-580). This
document details tools and techniques for removing fishing gear from incidentally
captured sea turtles, as well as other bycatch species. NMFS conducts careful release
protocol workshops in the United States and internationally to educate fishermen how to
use these tools and protocols to reduce post-hooking mortality by minimizing the amount
of fishing gear remaining on the turtle at release. NMFS fishery observers are trained in
these techniques as well, so that they may act as technology transfer stewards upon
request. SEFSC tests and certifies newly developed gear removal tools through
laboratory and field trials for use with sea turtles.

NMFS-SEFSC Continues to Lead Scientific Investigations on Atlantic Highly
Migratory Species (HMS): SEFSC is continuing scientific investigations of the ecology
and productivity of Atlantic HMS species, in support of U.S. scientific commitments to
the International Commission for the Conservation of Atlantic Tunas (ICCAT) and
domestic fishery management demands. Research, monitoring, and coordination
activities associated with these investigations are detailed under the FY 2008 heading.




                                                                                           31
In-Situ Ichthyoplankton Imaging System Successfully Deployed: NEFSC
successfully deployed the In-Situ Ichthyoplankton Imaging System (ISIIS) on a Center
Ecosystems Monitoring cruise. ISIIS is a towed system that images plankton in relatively
large volumes at high resolution and is capable of effectively “sampling” larval fish. The
system greatly improves the ability to survey early life stage of fish and to supply fishery-
independent information about stock status and structure. ISIIS was deployed from the
NOAA Ship Delaware II along two transects south of Narragansett Bay; this is the first
application outside of Florida waters and the first from a NOAA vessel. ISIIS has the
potential to revolutionize the sampling of fish early life stages, and if this potential is
realized, the technology could be used across NMFS to bring additional fishery
independent information into the next generation of stock assessments. This work is
supported by the NMFS Advanced Sampling Technology Working Group.

In an effort to measure habitat use, migration patterns, and subpopulation connectivity of
fish stocks in the Northwest Atlantic, NEFSC collaborated with university scientists to
develop an ultrasonic telemetry receiver system that can be integrated into an AUV. The
AUVs are gliders currently used by IOOS for regional-scale physical surveys of the
coastal ocean. Adding the telemetry system to the AUV creates an effective method to
sample ultrasonically tagged fishes over large areas with only one receiver while
collecting a synoptic physical data record of pelagic habitats. This application has the
potential to greatly increase the coverage of acoustic tagging studies, which currently
require the more costly deployment of multiple-moored receivers typically placed in
spatially restricted grids at the sea floor.

NOAA Scientists Developing Tools for Bering Sea Ecosystem Assessment and
Forecasting: NOAA Fisheries and NOAA Research personnel at the AFSC and PMEL
are advancing the ability to sustain coastal marine resources of the eastern Bering Sea.
NOAA researchers in collaboration with the National Science Foundation and the North
Pacific Research Board are conducting research to determine the impacts of climate
variability and develop the ability to forecast the ecosystem’s response. By evaluating
the regional accuracy of long-term climate models, and using their predictions to drive
biophysical models of living marine resource productivity, this applied research is
developing exciting new tools for use by resource managers and other stakeholders.

Modeling Stream Temperature for Salmon Habitat: The SWFSC Fisheries Ecology
Division (FED) has developed a stream temperature model for the California Central
Valley Project (CVP) that operates at spatio-temporal scales suitable for estimating
salmonid mortality. Within the managed rivers of the CVP, salmon species listed under
the Endangered Species Act (ESA) are restricted to lowland habitat because they no
longer have access to their ancestral spawning sites above dams and other impassable
barriers. Low-water flows and elevated temperatures are further degrading marginal
habitat as state and federal water project managers consider the short-term and seasonal
needs of agriculture, urban users, hydroelectric production, and flood control when
making water allocation decisions. On the Upper Sacramento River the current
management approach, as designated in the CVP Operations Criteria and Plan (OCAP),
requires water flows sufficient to maintain a temperature at or below 56°F at a given
compliance point downstream from the reservoir discharge. This model assesses different


                                                                                          32
water release management strategies on salmon mortality and to provide short-term
forecasts of stream conditions. The model is based on water flow and discharge
temperature, and applies a basic heat budget approach that incorporates atmospheric
inputs (primary drivers are solar radiation, air temperature, wind speed, and cloud cover)
to track water temperature downstream. The modeled stream temperatures are then
applied to salmon mortality models to evaluate the biological effectiveness of various
water management scenarios. Model simulations can be made interactively using web-
based data services, developed in conjunction with SWFSC Environmental Research
Division (ERD). From these models, SWFSC researchers are developing science-based
summaries to meet the specific demands of regional water and other resource managers.
SWFSC has demonstrated the model with a web-based interface to potential end-users in
NOAA Fisheries, U.S. Fish and Wildlife Service, and the U.S. Bureau of Reclamation.

Scientists report on causes of Sacramento River fall Chinook salmon collapse: A multi-
agency scientific review panel, led by scientists at the SWFSC Fisheries Ecology and
Environmental Research Divisions and NWFSC, released a report on March 18, 2009
that outlines the potential causes for the recent severe decline in the abundance of
Sacramento River fall Chinook salmon (SRFC). The panel found that poor conditions in
the coastal ocean in 2005 and 2006 resulted in unusually poor survival of fall-run
Chinook salmon returning to the River in 2007 and 2008. These fish entered the ocean
during periods of weak upwelling, warm sea surface temperatures, and scarce food.
Freshwater water quality and flow factors were ruled out as direct causes of the collapse.
Factors possibly contributing to the collapse included damage to freshwater habitat from
land and water development in the Sacramento-San Joaquin watershed, and reduced
Chinook population diversity due to hatchery practices, since most fall Chinook are now
born in hatcheries. The panel noted that the key to reducing variation in the abundance of
salmon is increasing their genetic diversity and maintaining their freshwater habitat. This
could be achieved by reforming hatchery practices; managing for naturally-produced fall
Chinook; and restoring habitats in the rivers, the San Francisco Delta and Bay.

Workshop to Establish a Climate Research Vision/Strategy/Program within the
NMFS Pacific Islands Fisheries Science Center (PIFSC): PIFSC held a climate
workshop in Honolulu on August 5-6, 2009, and included PIFSC staff, selected scientific
and policy experts in fields related to climate change, and state resource managers. The
workshop consisted of one full day of presentations designed to bring participants up to
date on the state of climate change science, and a second full day of breakout groups
designed to collect information on current climate activities at PIFSC, research gaps, and
potential research projects PIFSC could be undertaking to support resource managers and
improve climate science. PIFSC completed a preliminary summary report of the
workshop findings, which will serve as the strategic plan for climate-related research at
PIFSC.

Arctic Nearshore Fishes–Establishing a Baseline in a Dynamic Environment: The
Arctic is home to many species of fish, seabirds, and marine mammals. Most of the
Arctic is pristine, but all of it is vulnerable to increasing stress from coastal development
and changing environmental disturbances. The Arctic is warming at an alarming rate; the



                                                                                           33
present extent of Arctic sea ice is the second lowest on record, further reinforcing a long-
term state of decline. Other threats to the Arctic environment include increased demand
for oil and gas exploration and development; mining; increased transportation activities;
and commercial fishing. Current information is needed on Arctic fish distribution,
essential habitats, food webs, and species at risk in order to make informed management
decisions regarding potential effects from offshore oil exploration and global climate
change. This is especially true for shallow-water areas, which are often ignored in
fisheries surveys.

In response to this need, NMFS Alaska Fisheries Science Center scientists have been
examining shallow-water fish assemblages near Barrow since 2007 to establish a baseline
for long-term monitoring. Over 20 fish species have been identified to date; the two most
abundant are capelin and Arctic cod. Both of these species are extremely important as
prey for marine mammals and seabirds. All catch data is included in the Nearshore Fish
Atlas of Alaska website. Other data collected include temperature, salinity, ph, and
baseline hydrocarbon measurements.

Study on the Efficacy of Modified Longline Fishing Gear or Fishing Operations as a
Means of Reducing Bycatch completed: The NMFS Pacific Island Fisheries Science
Center (PIFSC) carried out a longline experiment consisting of 45 paired sets (90 sets
total) to evaluate a technique which maintains target catch rates while reducing non-target
catch rates. Researchers compared control sets to experimental sets in which the
shallowest hooks (less than 100m depth) were eliminated. Researchers hypothesized that
eliminating shallow hooks would maximize target catch of deeper dwelling species, such
as bigeye tuna, while at the same time, reducing incidental catch of many other non-
target, but marketable epi-pelagic species (e.g. billfish); bycatch (discards) of other fishes
and sharks; and protected sea turtles and marine mammals. Research findings supported
the hypothesis that the catch rates of bigeye tuna was not impacted by eliminating
shallow hooks. The experimental sets also resulted in reduced longline interactions and
impacts to non-targeted species, including wahoo, dolphinfish, blue marlin, striped
marlin, and shortbill spearfish. However, for the non-targeted species sickle pomfret, the
catch rate was significantly higher in the experimental sets compared to control sets. The
reason for the differences in catch rates between gear types is likely due to the vertical
habitat preferences of the species involved; interactions with epi-pelagic species with
shallow distributions in the uniform mixed layer were reduced by deploying hooks
greater than 100m. By logical extension, the experimental gear will also likely reduce
interactions with sea turtles. Except for additional leadweights, floats, and floatlines, only
slight modification of existing longline fishing gear and methods were required to deploy
the experimental gear. The main drawback of this method was the increased amount of
time to deploy and retrieve the gear.

Changes in Relative Abundance of Species at the Top of the Central North Pacific
Subtropical Gyre Ecosystem, 1996-2006: Catch rates for the 13 most abundant species
caught in the deep-set Hawaii-based longline fishery over the past decade (1996-2006)
provide evidence of a change at the top of the North Pacific subtropical ecosystem. Catch
rates for apex predators such as blue shark, bigeye and albacore tunas, shortbill spearfish,



                                                                                           34
and striped marlin declined from 3 to 9% per year while catch rates for 4 mid-trophic
species, mahimahi, sickle pomfret, escolar, and snake mackerel increased by 6 to 18%
per year. The mean trophic level of the catch for these 13 species declined 5%, from 3.85
to 3.66. A shift in the ecosystem to an increase in mid-trophic level, fast-growing and
short-lived species is suggested by the decline in apex predators in the catch from 70% to
40% and the increase in species with production biomass values of 1.0 or larger in the
catch from 20% to 40%. This new ecosystem may exhibit more temporal variation in
response to climate variability.

Refinements to the Operational TurtleWatch Advisory for the Hawaii-Based
Longline Fishery: NMFS Pacific Island Fisheries Science Center (PIFSC) researchers
analyzed dive data from 17 depth recorders attached to loggerhead sea turtles in the
Hawaii-based longline fishing ground. A subset of the analyzed dive behavior results
were incorporated into a joint probability model which was used to predict the
temperature regions where the highest loggerhead interactions were expected to occur.
The modeled temperature range was compared with the existing TurtleWatch model to
understand whether the addition of loggerhead dive behavior improves the dynamic
habitat TurtleWatch model. The results of the dive data showed that dive behavior was
fairly uniform across the surface temperatures inhabited by turtles during the time of the
year when the bulk of interactions with the fishery occurred. The initial application of
dive data to the model did not substantially improve the ability to explain the interactions
by the fishery.

NIST:

NIST, DOD, and Intelligence Agencies Join Forces to Secure U.S. Cyber
Infrastructure: NIST, in partnership with the Department of Defense (DOD), the
Intelligence Community (IC), and the Committee on National Security Systems (CNSS),
has released the first installment of a three-year effort to build a unified information
security framework for the entire federal government. Historically, information systems
at civilian agencies have operated under different security controls than military and
intelligence information systems. This installment is titled NIST Special Publication 800-
53, Revision 3, Recommended Security Controls for Federal Information Systems and
Organizations. This revised security control catalog provides the most state-of-the-
practice set of safeguards and countermeasures for information systems ever developed.
The updated security controls—many addressing advanced cyber threats—were
developed by a joint task force that included NIST, DOD, the IC, and the CNSS with
specific information from databases of known cyber attacks and threat information.

For Refrigeration Problems, a Magnetically Attractive Solution: An exotic metal
alloy discovered by an international collaboration working at the NIST Center for
Neutron Research may prove to be the long-sought material that permits magnetic
cooling in home refrigeration instead of commonly used gas-compression systems.
Magnetic cooling, though used for decades in science and industry, has yet to find
application in the home because of technical and environmental hurdles—but the
collaboration may have overcome the hurdles. The alloy, a magnetocaloric material that



                                                                                          35
changes temperature when exposed to a magnetic field, is a mixture of manganese, iron,
phosphorus, and germanium. Though not yet ready for the marketplace, it is the first
magnetocaloric that functions at near room temperature to contain neither gadolinium nor
arsenic, rendering it both safer and cheaper than other magnetocalorics. It also has such
strong properties that a system based on it could rival gas compression in efficiency.




Random Antenna Arrays Boost Emergency Communications: First responders could
boost their radio communications quickly at a disaster site by setting out just four extra
transmitters in a random arrangement to significantly increase the signal power at the
receiver, according to theoretical analyses, simulations, and proof-of-concept
experiments performed at NIST. The NIST work may provide a practical solution to a
common problem in emergency communications. The vast amount of metal and steel-
reinforced concrete in buildings and rubble often interferes with or blocks radio signals.
This was one factor in the many emergency communications difficulties during the
response to the attacks on the World Trade Center on September 11, 2001.

Electronic Methods Potentially Secure for Sending Blank Ballots Overseas; Serious
Issues Remain for Receiving Votes: Electronic technologies could be deployed
immediately and reliably to augment slower postal mail for distributing ballots to U.S.
citizens living abroad, but using telephone, e-mail, and the Web to transmit completed
ballots still faces significant unresolved issues, according to a report released by NIST.
The report discusses how postal mail and four electronic transmission options (telephone,
fax, e-mail, and Web sites) could be used in the overseas voting process. It identifies
issues and threats associated with using these methods to register voters, distribute blank
ballots, and return voted ballots. In addition, the report suggests control measures that can
mitigate some of the specific threats identified. The need to verify that each completed
ballot comes from a registered voter and has not been changed in transit, while preserving
voter privacy, makes the threats to the return of voted ballots by e-mail and Web
“difficult to overcome,” according to the NIST report. To ensure that voters receive
unaltered ballots, the NIST report recommended specific control measures, such as
cryptography and back up communications lines, depending on the electronic method
chosen. Voter registration could also be accomplished electronically using these
technologies.

Updated Specification Issued for PIV Card Implementations: NIST scientists have
released an updated technical specification for Personal Identity Verification (PIV) cards
that are being phased in by federal departments and agencies for use by their employees
and contractors. The technical specification updates the specifications issued in 2006 and
will assist federal departments and agencies that are implementing the PIV system and
the vendors and system integrators that supply PIV system components and services.
NIST is responsible for providing the technical specification for the PIV cards—smart




                                                                                          36
cards that securely store data such as fingerprint templates and a facial image that are
used to verify the cardholder’s identity.

FY 2008:

NOAA:

California Commercial Landings Data Recovered: NMFS completed work on a
California commercial landings database covering landings from 1931 to 2007. Landings
from 1931 through 1968 were recovered through the NESDIS Climate Database. The
recovered data, when combined with more recent landings estimates from the California
Cooperative Groundfish Survey from 1969-2007, forms one of the longest detailed catch
records in the US. The 1931-68 period includes monthly summaries of catches. These
data are now openly available to the public for use in stock assessments and monitoring
of climate effects. NMFS is currently working with the California Department of Fish
and Game to extend the geographic summary information to more recent years.

Integrated Ecosystem Assessment (IEA) for Puget Sound and the California
Current: NWFSC is leading a team of scientists to conduct a preliminary IEA in Puget
Sound in collaboration with the Puget Sound Partnership. The NOAA approach to IEA is:
to identify ecosystem goals; indicators, and targets to assess the health of the Sound's
ecosystem; conduct risk analysis to determine the current status and key threats; generate
alternative management strategies; and, evaluate the strategies and resulting ecosystem
status. This approach will help decision-makers understand the ecosystem services most
at risk, identify management strategies with the best chance of producing recovery, and
increase public awareness and support for recovery and management actions to promote a
healthy Puget Sound ecosystem. To date, NWFSC has been working with the Puget
Sound Partnership to develop clear ecosystem-based management operational objectives
with specific performance measures. NWFSC has worked with technical teams to
develop a provisional list of ecosystem indicators, and is using ecosystem models to test
indicator performance. The teams are using ecosystem models to develop management
targets for proposed indicators. Potential threats are being mapped and basic spatial
analyses are being performed. Statistical models are being used to evaluate the potential
effect of different management scenarios on ecosystem status. Additionally,
development of ecosystem models is progressing, and these models will be used to
forecasting the likely outcome of suites of management actions. Lessons from the Puget
Sound IEA effort will help guide development of an IEA for the California Current and
provide a foundation for ecosystem-based management.

Alaskan Observer Information System Re-Designed: The AFSC implemented a
major re-design of the information collection system used by observers deployed on the
commercial Alaskan groundfish fleet. This re-design was a major upgrade effecting both
how the information is collected and stored. The re-design implementation is responsive
to a number of key users needs, and it will provide an information system that will serve
the needs of a host of internal and external clients well into the future. Notable was that
this was a change to a production data system on which fisheries managers, scientists and



                                                                                           37
industry are dependent for real time information. Implementation was complex as it
involved re-training several hundred observers and deploying a new data entry
application on over 100 vessels and shore side processing plants across Alaska. This was
accomplished without a break in the service providing fisheries dependent information to
clients.

NOAA Scientists Develop New Tool for Measuring the Nutritional Status of Fish in
the Field: Bioelectrical impedance analysis (BIA) has previously been used in human
health to monitor the progress of patients with degenerative diseases. In FY 2008, AFSC
scientists determined the limitations to applying BIA to fish, demonstrated its utility
under laboratory conditions and applied the method to characterize the quality of fish
habitat in Alaska.

NMFS Scientists Transfer Best Practices in Bycatch Reduction Around the World:
Southeast Fisheries Science Center’s (SEFSC) Pascagoula Laboratory gear specialists
lead turtle excluder device (TED) and bycatch mitigation training and technology transfer
activities all over the world. They provide technical assistance to the U.S. State
Department in conducting international TED-use verification trips in support of U.S.
Public Law 101-162 (Sea Turtle/Shrimp export rule). These include TED technical
training workshops for trawl fisheries that interact with sea turtles, pelagic longline sea
turtle mitigation technology workshops, Bycatch Reduction Device technical training
workshops for trawl fisheries and TED use and enforcement. Countries visited in 2008
for these activities include Morocco, Honduras, Guatemala, Nicaragua, and Costa Rica.

Development of Unmanned Aircraft System (UAS): During the Oscar E. Sette cruise
08-02 (March 24-April 9, 2008), the UAS prototype (dubbed the Malolo 1, Hawaiian for
"flying fish") was deployed for a total of nine logged flights. The UAS's airframe was
specified to have a downward looking video camera, systems to telemeter the video to a
base station located on the ship, and software to analyze the video for anomalous objects
(i.e. floating debris). The aircraft was designed to be launched from the ship and, upon
completion of its flight, to land on the water and be recovered by a small boat. The trials
demonstrated that the prototype UAS could be launched from a ship, fly in 20+ knot
winds, and be recovered at sea with minimal damage or loss. Higher order issues such as
camera/instrument package integration, anomaly detection algorithms, and autonomous
flight/survey execution will be the focus of the next round of trials scheduled for FY
2009.

NMFS-SEFSC Leads Scientific Investigations on Atlantic Highly Migratory Species
(HMS): SEFSC has responsibility for scientific investigations of the ecology and
productivity of Atlantic HMS species, in support of U.S. scientific commitments to the
International Commission for the Conservation of Atlantic Tunas (ICCAT) and domestic
fishery management demands. Primary responsibilities are to monitor catch and effort; to
conduct stock assessments; and to conduct biological research in support of HMS stock
assessments, providing scientific advice to both domestic and international management
bodies. These tasks require collaboration and coordination with other NMFS research and
management offices and also require frequent interactions with federal, state, academic,



                                                                                         38
and private institutions. SEFSC also invests considerable resources in transferring stock
assessment capacity to other nations through ICCAT, the Caribbean RFMO, IATTC and
other mechanisms.

Development of Autonomous Underwater Vehicle for Fisheries Observation and
Management: As a coordinated effort among all NOAA Fisheries Service Science
Centers, NOAA’s Advanced Sampling Technologies Working Group is developing a
portable autonomous underwater vehicle (AUV). This is the first NOAA Fisheries
Service AUV and the first of its kind to include a suite of fisheries-specific
instrumentation. The AUV may be deployed from fisheries survey vessels, small craft, or
the shore to gather data required for ecosystems-based fisheries management. This
capability would assist in investigating areas previously unobservable from shipboard
instrumentation as well as conducting longer term monitoring of essential habitats. The
portable size also allows for world-wide shipping to conduct or enhance stock
assessments of fish. Southwest Fisheries Science Center Advanced Survey Technologies
Program scientists are currently testing and refining this prototype vehicle and
conducting pilot research projects that will guide future fisheries research investments in
AUVs.

NIST:

Enabling nanotechnology: Researchers at NIST have reported a new technique to sort
batches of carbon nanotubes by length using high-speed centrifuges. Many potential
applications for carbon nanotubes depend on the lengths of these microscopic cylinders,
and one of the most important features of the new technique, say the scientists, is that it
should be easily scalable to produce industrial quantities of high-quality nanotubes. In
biomedical applications, for example, it has been shown that whether or not nanotubes
are taken up in cells depends critically on length. Nanotubes used as components in
future microcircuits obviously need to fit in place, and in optical applications, a
nanotube’s length determines how strongly it will absorb or emit light. While other
techniques have been shown to sort nanotubes by length, this is the first approach that
could be scaled up to produce commercially important quantities of nanotubes in a given
length range. The process also removes much of unwanted junk—particularly metal
particles—from the batch. NIST has applied for a patent on the process.

NIST shows on-card fingerprint match is secure, speedy: A fingerprint identification
technology for use in Personal Identification Verification (PIV) cards that offers
improved protection from identity theft meets the standardized accuracy criteria for
federal identification cards, according to NIST researchers. Recent tests assessed the
accuracy and security of two variations on this model that, if accepted for government
use, would offer improved features. The first allows the biometric data on the card to
travel across a secure wireless interface to eliminate the need to insert the card into a
reader. The second uses an alternative authentication technique called “match-on-card” in
which biometric data from the fingerprint scanner is sent to the PIV smart card for
matching by a processor chip embedded in the card. The researchers found that 10 cards
with a standard 128-byte-long key and seven cards that use a more secure 256-byte key



                                                                                         39
passed the security and timing test using wireless. On the accuracy side, one team met the
criteria set by NIST and two others missed narrowly.

Building bridges between conventional and molecular electronics: Researchers at
NIST have set the stage for building the “evolutionary link” between the microelectronics
of today built from semiconductor compounds and future generations of devices made
largely from complex organic molecules. The team has demonstrated that a single layer
of organic molecules can be assembled on the same sort of substrate used in conventional
microchips. The ability to use a silicon crystal substrate that is compatible with the
industry-standard CMOS (complementary metal oxide semiconductor) manufacturing
technology paves the way for hybrid CMOS-molecular device circuitry—the necessary
precursor to a “beyond CMOS” totally molecular technology—to be fabricated in the
near future. The next step, the team reports, is to fabricate a CMOS-molecular hybrid
circuit to show that molecular electronic components can work in harmony with current
microelectronics technologies.

Testing a potential hydrogen storage compound: Researchers at NIST’s Center for
Neutron Research (NCNR), in collaboration with scientists at the University of Maryland
and the California Institute of Technology, have demonstrated that a novel class of
materials called metal-organic frameworks could enable a practical hydrogen fuel tank.
One of several classes of materials that can bind and release hydrogen under the right
conditions, MOFs could be engineered so that refueling is as easy as pumping gas at a
service station is today, and don’t require the high temperatures (110 to 500 C) some
other materials need to release hydrogen. The researchers used neutron scattering and gas
adsorption techniques to determine that at 77 K (-196 C), MOF-74 can absorb more
hydrogen than any unpressurized framework structure studied to date—packing the
molecules in more densely than they would be if frozen in a block.

NIST ‘quantum logic clock’ rivals mercury ion as world’s most accurate: An atomic
clock that uses an aluminum atom to apply the logic of computers to the peculiarities of
the quantum world now rivals the world’s most accurate clock, based on a single mercury
atom. Both clocks are at least 10 times more accurate than the current U.S. time standard.
The measurements were made in a yearlong comparison of the two next-generation
clocks, both designed and built at NIST. The clocks were compared with record
precision, allowing scientists to measure the relative frequencies of the two clocks to 17
digits—the most accurate measurement of this type ever made. The comparison produced
the most precise results yet in the worldwide quest to determine whether some of the
fundamental constants that describe the universe are changing slightly over time, an
important research question that may alter basic models of the cosmos. The aluminum
and mercury clocks are both based on natural atomic vibrations and would neither gain
nor lose one second in over 1 billion years—if they could run for such a long time—
compared to about 80 million years for NIST-F1, the U.S. time standard based on cesium
atoms.

Bioimaging in living color: NIST and the National Institutes of Health researchers
reported in June 2008 that customized microscopic magnets might one day be injected



                                                                                       40
into the body to add color to magnetic resonance imaging (MRI) while enhancing
sensitivity and the amount of information provided by images. Unlike the chemical
solutions now used as image-enhancing contrast agents in MRI, the NIST/NIH
micromagnets rely on a precisely tunable feature—their physical shape—to adjust the
radio frequency (RF) signals used to create images. The RF signals then can be converted
into a rainbow of optical colors by computer. Sets of different magnets designed to
appear as different colors could, for example, be coated to attach to different cell types,
such as cancerous versus normal. The new micromagnets also could act as “smart tags,”
identifying particular cells, tissues or physiological conditions for medical research or
diagnostic purposes. The magnets could also make medical diagnostic images as
information-rich as the optical images of tissue samples now common in biotechnology,
which already benefits from a variety of colored markers such as fluorescent proteins and
tunable quantum dots.

Improving subterranean communication: As part of a project to improve wireless
communications for emergency responders, NIST researchers have confirmed that
underground tunnels—generally a difficult setting for radios—can have a frequency
“sweet spot” at which signals may travel several times farther than at other frequencies.
The finding, which uses extensive new data to confirm models developed in the 1970s,
may point to strategies for enhancing rescue communications in subways and mines. The
optimal frequency depends on the dimensions of the tunnel. The NIST data will support
the development of open standards for design of optimal systems, especially for
emergency responders. NIST researchers note that the results may help design wireless
systems that improve control of, for example, search and rescue robots in subways.

NIST mini sensor may ‘change the way we live’: A tiny sensor that can detect
magnetic field changes as small as 70 femtoteslas—equivalent to the brain waves of a
person daydreaming—has been demonstrated at NIST. The sensor could be battery-
operated and could reduce the costs of non-invasive biomagnetic measurements such as
fetal heart monitoring. The device also may have applications such as homeland security
screening for explosives. The prototype device is almost 1,000 times more sensitive than
NIST’s original chip-scale magnetometer demonstrated in 2004. The new sensor is
already powerful enough for fetal heart monitoring; with further work, the sensitivity can
likely be improved to a level in the 10 femtotesla range, sufficient for additional
applications such as measuring brain activity. Potential NIST collaborators are interested
in making a portable MEG helmet that could be worn by epileptics to record brain
activity before and during seizures. The devices would be much smaller and lighter than
the Superconducting Quantum Interference Devices helmets currently used for such
studies. The NIST sensor also may have applications in MRI or in airport screening for
explosives based on detection of nuclear quadrupole resonance in nitrogen compounds.




                                                                                        41
